<html>
<title> - HEARING TO REVIEW CURRENT RESEARCH AND APPLICATION OF MANAGEMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    HEARING TO REVIEW CURRENT RESEARCH AND APPLICATION OF MANAGEMENT
        STRATEGIES TO CONTROL PESTS AND DISEASES OF POLLINATORS

=======================================================================

                                HEARING

                               BEFORE THE

  SUBCOMMITTEE ON HORTICULTURE, RESEARCH, BIOTECHNOLOGY, AND FOREIGN 
                              AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2014

                               __________

                           Serial No. 113-12


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov



                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-765 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

  Subcommittee on Horticulture, Research, Biotechnology, and Foreign 
                              Agriculture

                    AUSTIN SCOTT, Georgia, Chairman

VICKY HARTZLER, Missouri             KURT SCHRADER, Oregon, Ranking 
JEFF DENHAM, California              Minority Member
STEPHEN LEE FINCHER, Tennessee       SUZAN K. DelBENE, Washington
DOUG LaMALFA, California             JIM COSTA, California
RODNEY DAVIS, Illinois               MARCIA L. FUDGE, Ohio
CHRIS COLLINS, New York              ANN M. KUSTER, New Hampshire
TED S. YOHO, Florida                 JUAN VARGAS, California
                                     SEAN PATRICK MALONEY, New York

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Costa, Hon. Jim, a Representative in Congress from California, 
  submitted letter on behalf of Almond Hullers & Processors 
  Association....................................................    39
Scott, Hon. Austin, a Representative in Congress from Georgia, 
  opening statement..............................................     1
    Prepared statement...........................................     2
    Submitted statement on behalf of Gene Harrington, Vice 
      President, Government Affairs, National Pest Management 
      Association................................................    39
Schrader, Hon. Kurt, a Representative in Congress from Oregon, 
  opening statement..............................................     3

                               Witnesses

Pettis, Dr. Jeffrey S., Research Leader, Bee Research Laboratory, 
  Agricultural Research Service, U.S. Department of Agriculture, 
  Beltsville, MD.................................................     5
    Prepared statement...........................................     6
    Submitted questions..........................................    43
    Supplementary material.......................................    41
Cummings, Arthur Daniel ``Dan'', Chief Executive Officer, Capay 
  Farms; Chief Financial Officer, Olivarez Honey Bees, Chico, CA.     8
    Prepared statement...........................................    10
    Submitted letter.............................................    42
Stone, Jeff, Executive Director and Chief Executive Officer, 
  Oregon Association of Nurseries, Wilsonville, OR...............    12
    Prepared statement...........................................    14
Fischer, Dr. David L., Director, Pollinator Safety & Manager, 
  Bayer North American Bee Care Center, Research Triangle Park, 
  NC.............................................................    17
    Prepared statement...........................................    19

 
    HEARING TO REVIEW CURRENT RESEARCH AND APPLICATION OF MANAGEMENT

        STRATEGIES TO CONTROL PESTS AND DISEASES OF POLLINATORS

                              ----------                              


                        TUESDAY, APRIL 29, 2014

                  House of Representatives,
Subcommittee on Horticulture, Research, Biotechnology, and 
                                       Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Austin 
Scott [Chairman of the Subcommittee] presiding.
    Members present: Representatives Scott, Hartzler, Denham, 
LaMalfa, Davis, Collins, Schrader, DelBene, Costa, Vargas, and 
Peterson (ex officio).
    Staff present: DaNita Murray, Debbie Smith, John Goldberg, 
Nicole Scott, Tamara Hinton, C. Clark Ogilvie, Keith Jones, Liz 
Friedlander, John Konya, and Riley Pagett.

  OPENING STATEMENT OF HON. AUSTIN SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. Good morning. This hearing of the 
Subcommittee on Horticulture, Research, Biotechnology, and 
Foreign Agriculture to review current research and application 
of management strategies to control pests and diseases of 
pollinators, will come to order.
    I thank you all for being here today to discuss an issue 
that is extremely important to our country's agricultural 
industry. Today's hearing of the Subcommittee on Horticulture, 
Research, Biotechnology, and Foreign Agriculture will review 
the current health of our nation's bee pollinators. Bees play a 
critical role in plant reproduction, contributing an estimated 
$16 billion annually in added value to more than 30 percent of 
the crops that we produce in this country. My colleagues and I 
are pleased to welcome several witnesses who have direct 
involvement and first-hand experience with bee pollinators. 
Over the past several years, beekeepers have experienced 
significant losses due to colony collapse. The precise reason 
for this Colony Collapse Disorder is not yet known. However, a 
leading cause appears to be the Varroa mite pests. Some believe 
other factors including disease, diet, nutrition, genetics, 
habitat loss, beekeeping management practices and the improper 
use of pesticides may also play a role.
    To address these issues, the Agriculture Committee 
authorized increased funding for pollinator research as part of 
the 2008 Farm Bill. Similarly, the 2014 Farm Bill reauthorized 
and expanded many of these provisions addressing managing 
honeybees and native pollinators as part of the research, 
conservation and specialty crop program.
    As we hear from our distinguished panel of witnesses today, 
we hope to gain a better understanding of the role of our 
nation's pollinators and the status of research both on causes 
of Colony Collapse Disorder and the possible tools to combat 
this problem.
    Before us today is a panel of four distinguished witnesses. 
We are joined by Dr. Jeff Pettis, Research Leader of the USDA-
ARS Bee Research Laboratory. Dr. Pettis oversees all USDA 
research concerning threats that may play into the sharp 
decline of our nation's pollinators. We are also joined by Mr. 
Dan Cummings, CEO of Capay Farms. Did I say that correctly, Mr. 
Cummings?
    Mr. Cummings. Capay.
    The Chairman. Capay Farms in Chico, California. Capay Farms 
manages over 10,000 acres of almonds and walnuts in the Central 
Valley of California, also is partner and CFO of Olivarez Honey 
Bees.
    Mr. Cummings. Olivarez.
    The Chairman. Olivarez. That may be the Georgia-California 
divide there. Every year he ensures California is provided with 
a healthy supply of honeybees.
    Also we have Mr. Jeff Stone, Executive Director and CEO of 
the Oregon Association of Nurseries. The Oregon Association of 
Nurseries represents more than 1,200 growers, retailers, 
landscapers and suppliers in the ornamental horticultural 
industry. We have Dr. David Fischer, Director of Pollinator 
Safety Group and Manager of the Bayer North America Bee Center 
located in the Research Triangle of North Carolina. Dr. 
Fischer's expertise is in the area of terrestrial exotoxicology 
and risk assessment.
    We appreciate the time each of you have given to us, and we 
will have a more detailed introduction of you as we go forward.
    [The prepared statement of Mr. Scott follows:]

 Prepared Statement of Hon. Austin Scott, a Representative in Congress 
                              from Georgia
    Good afternoon.
    Thank you all for being here today to discuss an issue that is 
extremely important to our country's agriculture industry.
    Today's hearing of the Subcommittee on Horticulture, Research, 
Biotechnology, and Foreign Agriculture will review the current health 
of our nation's bee pollinators. Bees play a critical role in plant 
reproduction contributing an estimated $16 billion annually in added 
value to more than 30% of the crops we produce.
    My colleagues and I are pleased to welcome several witnesses who 
have direct involvement and first-hand experience with bee pollinators.
    Over the past several years, beekeepers have experienced 
significant losses due to colony collapse. The precise reason for this 
Colony Collapse Disorder is not yet known, however, a leading cause 
appears to be the Varroa mite pest. Some believe other factors 
including disease, diet and nutrition, genetics, habitat loss, 
beekeeping management practices and the improper use of pesticides may 
also play a role.
    To address these issues, the Agriculture Committee authorized 
increased funding for pollinator research as part of the 2008 Farm 
Bill. Similarly, the 2014 Farm Bill reauthorized and expanded many of 
these provisions, addressing managed honey bees and native pollinators 
as part of the research, conservation, and specialty crop programs.
    As we hear from our distinguished panel of witnesses today, we hope 
to gain a better understanding of the role of our nation's pollinators 
and the status of research both on causes of Colony Collapse Disorder 
and the possible tools to combat this problem.
    Before us today is a panel of four distinguished witnesses:
    We are joined by Dr. Jeff Pettis, Research Leader of the USDA-ARS 
Bee Research Laboratory. Dr. Pettis oversees all USDA research 
concerning threats that may play into the sharp decline of our nation's 
pollinators.
    We're also joined by Mr. Dan Cummings, CEO of Capay Farms in Chico, 
California. Capay Farms manages over 10,000 acres of almonds and 
walnuts in the Central Valley of California. Also, as partner and CFO 
of Olivarez Honey Bees, every year, he ensures California is provided 
with a healthy supply of honeybees.
    Also, we have Mr. Jeff Stone, Executive Director and CEO of the 
Oregon Association of Nurseries. The Oregon Association of Nurseries 
represents more than 1,200 growers, retailers, landscapers, and 
suppliers in the ornamental horticulture industry.
    Finally, we have Dr. David Fischer, Director of Pollinator Safety 
Group and Manager of the Bayer North American Bee Care Center located 
in the Research Triangle region of North Carolina. Dr. Fischer's 
expertise is in the area of terrestrial exotoxicology and risk 
assessment.
    We appreciate the time each of you have given to prepare for this 
hearing. Your testimony will be important to evaluate the current state 
of pollinator health.
    Thank you.
    I would like to recognize my colleague from Oregon, Ranking Member 
Schrader, for any opening remarks he may have.

    The Chairman. I would now like to recognize my colleague 
from Oregon, the Ranking Member, Mr. Kurt Schrader, for any 
opening remarks that he may have.

 OPENING STATEMENT OF HON. KURT SCHRADER, A REPRESENTATIVE IN 
                      CONGRESS FROM OREGON

    Mr. Schrader. Thank you, Mr. Chairman. I really appreciate 
the opportunity to have this hearing. As we all know, honeybees 
are critical to agriculture. Without them, we don't have much 
of the agricultural products that we know and love and create a 
lot of economic opportunity for our country.
    Honeybee populations suffered over a 30 percent decline 
over the past 20 years. The Colony Collapse Disorder (CCD) has 
been a longstanding area of research. Honeybees pollinate over 
90 different food, fiber and seed crops across the country, a 
$15 billion annual benefit. It covers the gamut of crops as we 
know. There are over two million colonies transferred all over 
the country to pollinate our crops by commercial beekeepers.
    I have some of that experience myself, personally. Our 
family had a small apiary we used on our farm along with some 
commercial beekeepers who would help us pollinate our crops.
    The losses became acute as I understand it back in 2006-
2007 winter, and beekeepers have been struggling ever since. 
The 2008 Farm Bill for the first time funded research into what 
some of the causes of CCD are. We furthered that initiative in 
the 2014 Farm Bill, to carry that research through 2018.
    As a veterinarian, I learned that diseases, whether they 
are in animals or in our crops, are multi-faceted. Rarely is 
there a single cause, I believe that is what I am hearing from 
folks in the industry and the folks that benefit from 
pollination is that we are having to deal with several 
different causes and figure out how best to manage what to do 
with the problem. The press sometimes will focus on one reason, 
oftentime there is more than one cause. I hope this hearing 
adds some thoughtful science to the process and moves us 
further down the road to good policy.
    And with that, I yield back Mr. Chairman.
    The Chairman. Thank you, Mr. Schrader. And as I said 
before, today we have a panel of four distinguished witnesses. 
Dr. Jeff Pettis is Research Leader of the USDA, the ARS Bee 
Research Laboratory. I would now like to yield to Mr. LaMalfa 
for an introduction of Mr. Cummings who is from his district.
    Mr. LaMalfa. Thank you, Mr. Chairman. I am glad today to 
have Mr. Cummings from northern California, a constituent of 
mine here. Dan is the Capay Farms which is responsible for 
managing over 10,000 acres of almonds and walnuts, also the CFO 
of Olivarez Honey Bees, one of the world's largest producers of 
queen bees for resale. He is a frequent speaker at national 
honeybee conventions, almond industry research conferences and 
international trade shows. His 30+ years of experience have 
prepared him as a provider of background information and 
frequently quoted authority on almonds, honeybees in numerous 
publications and media, including The Wall Street Journal, 
Fortune magazine, Newsweek, and the BBC.
    Dan is also a director on the Blue Diamond Growers who have 
very graciously provided us with snacks here today. And it has 
helped me to illustrate that we say almond without the ``l'' in 
California a lot.
    So he is on the Blue Diamond Growers as a Director and 
Immediate Past Chairman of Project Apis m. and the Chairman of 
the Bee Task Force of the Almond Board of California. Dan has 
traveled extensively, having visited over 50 countries around 
the world, often promoting almonds during his tenure as Vice 
Chairman of the Almond Board and Chairman of that 
organization's Marketing Committee.
    He holds a BA in Economics from Stanford University, an MBA 
from Harvard and has been an instructor of the Capstone Course 
on Competition and Strategy in the College of Business at 
California State University in Chico.
    Dan, thank you for appearing today. Mr. Chairman, I yield 
back.
    The Chairman. I would like to now recognize Mr. Schrader, 
again, for an introduction of Mr. Stone from Oregon.
    Mr. Schrader. I will make it brief, Mr. Chairman. I am just 
really pleased to have Mr. Stone here. Jeff is no stranger to 
Capitol Hill and the goings on, so he brings a wealth of 
knowledge about the process. He has been the Executive Director 
of the Oregon Association of Nurseries for a number of years 
now and has great reputation back home. He is one of the 
leaders in our agricultural community when it comes to solving 
problems that affect all agriculture, and I really want to 
welcome him here. I appreciate him coming.
    The Chairman. And again, we have Dr. David Fischer with 
Pollinator Safety and Manager for Bayer North American Bee Care 
Center from North Carolina. Gentlemen? Dr. Pettis, your opening 
statements.

   STATEMENT OF DR. JEFFREY S. PETTIS, RESEARCH LEADER, BEE 
   RESEARCH LABORATORY, AGRICULTURAL RESEARCH SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE,
                         BELTSVILLE, MD

    Dr. Pettis. Chairman Scott, Ranking Member Schrader, and 
Members of the Subcommittee, I am Dr. Jeff Pettis, Research 
Leader of the Bee Research Laboratory in Beltsville, Maryland, 
a research laboratory dedicated to honeybee health. I am 
pleased to appear before you today to discuss a serious threat 
to the honeybee, the parasitic mite, Varroa, and also 
pollinator decline, an issue that threatens U.S. food security.
    About \1/3\ of our diet directly or indirectly benefits 
from honeybee pollination, and these tend to be the foods that 
add flavor and diversity to our diet, the fruits, nuts and 
vegetables that we enjoy. We can survive on grains, like corn, 
rice and wheat, but we thrive on the fruits, nuts and 
vegetables that bees provide.
    I want to focus my remarks now on one specific threat to 
honeybees, the parasitic mite Varroa, a modern plague on 
honeybees and responsible for the deaths of massive numbers of 
colonies not only here in the United States but worldwide.
    When Varroa mite was first found in this country in 1987, 
we had a strong population of honeybees in the wild. Beekeepers 
managed more than three million colonies for crop pollination, 
and their winter losses were typically around 10 to 15 percent. 
Today wild populations of bees are virtually gone. We manage 
2.5 to 2.7 million colonies, and the economic losses and the 
sustainability of beekeeping is at a tipping point. Ultimately, 
if no solutions are found for the Varroa mite and other plagues 
on honeybees, our food could become more expensive.
    Varroa mites are like ticks. They suck the blood of the bee 
physically and are a huge parasite in relation to the size of 
the honeybee. To illustrate this, if a honeybee were the size 
of a person, it would be like you having a tick the size of 
this large navel orange feeding on you. So again, if you can 
imagine that size parasite on an average human, you can see the 
Varroa mite is in fact a very physically damaging parasite and 
in addition, it acts much like a mosquito and will transmit 
viruses and other diseases that affect the bee.
    What bees and beekeepers need is research to build better 
tools to truly reduce the size of the problem the Varroa 
represents. Researchers at USDA's scientific agencies, the 
Agricultural Research Service and the National Institute of 
Food and Agriculture are working short term to provide better 
management practices and getting that information out to the 
beekeepers. For long-term solutions, we are looking at the 
genetics of both the mite and the bee, and we are also looking 
at better ways of nationally monitoring the bee health around 
the country.
    To give you an idea of how seriously the critical need for 
new solutions is, this past February USDA hosted a Varroa 
Summit. We brought together more than 75 individuals 
representing a broad array of stakeholders, and they talked for 
2 days and they came up with a number of long-term and short-
term solutions. We have a report coming out from that which 
will help guide us in future research on Varroa.
    However, even if the Varroa mite problem disappeared 
tomorrow, and I want to emphasize that, even if the Varroa mite 
problem disappeared tomorrow, honeybee health is complicated. 
This would not by itself solve all the problems facing 
honeybees. In the last 20 years, a whole host of new honeybee 
pathogens, viruses, bacteria, fungi, mites, have entered the 
United States, and Colony Collapse Disorder, a syndrome for 
which scientists still do not have a cause, while it has 
abated, continues to take a toll on apiaries. Exposure to 
pesticides in the environment may be weakening bee colonies, 
possibly making them more susceptible to other stresses. A lack 
of diversity in nectar and pollen resources may also play a 
major role in stressing honeybee colonies in the environment. 
Last, a loss of honeybees may reflect a larger issue of 
pollinator decline, with honeybee acting as an indicator 
species. The relative contributions of different stressors to 
colony deaths, including Colony Collapse Disorder, is not well 
understood, and solving this problem will take an all-hands-on-
deck approach, including research, public education, increased 
foraging lands and public-private partnerships to address the 
loss of pollinators.
    To meet today's increasing pollination demands, we need 
well over three million managed honeybee colonies in this 
country. To meet that goal, we need to make beekeeping 
profitable again, and I believe that starts with limiting the 
impact of Varroa, but it goes beyond that.
    So I would like to thank you again for the opportunity to 
speak to you today about pollinator health and food security, 
and I will be glad to answer questions as time permits.
    [The prepared statement of Dr. Pettis follows:]

   Prepared Statement of Dr. Jeffrey S. Pettis, Research Leader, Bee 
 Research Laboratory, Agricultural Research Service, U.S. Department of
                      Agriculture, Beltsville, MD
    Chairman Scott, Ranking Member Schrader, and Members of the 
Subcommittee, I am Dr. Jeff Pettis, Research Leader of the Bee Research 
Laboratory in Beltsville, Maryland, a research laboratory dedicated to 
honey bee health and part of the USDA Agricultural Research Service. I 
am pleased to appear before you to discuss a serious threat to the 
honey bee and thus our food security in the United States.
    Ultimately, if no long-term solutions are developed to slow bee 
decline, consumers will pay more for the food they buy. About one bite 
in three of the food we eat in the U.S. directly or indirectly benefits 
from bee pollination. These tend to be the foods that add vital 
nutrients, flavor and diversity to our diet: the fruits, nuts and 
vegetables that maintain health. Bees pollinate more than 90 crops and 
are responsible for $15 billion in added crop value. Over half the 
nation's bees are needed to pollinate almonds alone, a $3 billion crop 
with increasing acreage.
    One of the biggest problems facing honey bees and beekeepers today 
is the Varroa mite. The Varroa mite's full name is Varroa destructor, 
and it is perhaps the most aptly named parasite ever to enter this 
country. Varroa destructor is a modern honey bee plague. It has been 
responsible for the deaths of massive numbers of colonies both within 
the United States and worldwide. This mite is native to Asia where it 
normally parasitizes Apis cerana, the eastern or Asian honey bee, an 
entirely different species of honey bee from Apis mellifera, or the 
western honey bee, that was brought to the New World by Europeans, and 
on which the U.S. now depends for crop pollination. Asian honey bees 
have some natural defenses against the mite and consequently are rarely 
seriously affected by the Varroa. European honey bees, on the other 
hand, have been devastatingly susceptible to Varroa mite damage. The 
simple act of feeding by Varroa, where it pierces the skin of the bee 
to suck blood, can introduce bacteria and weaken the immune system of 
bees. Varroa mites also transmit an array of destructive viruses to 
honey bees, such as deformed wing virus.
    When Varroa destructor was first found in the Unites States in 
1987, beekeepers managed more than three million colonies for crop 
pollination and their winter losses were typically about 10 to 15 
percent. Today, beekeepers are having trouble maintaining 2.5 million 
managed colonies, winter losses are averaging over 30 percent a year, 
and the economic sustainability of beekeeping is at the tipping point. 
Beekeepers have identified Varroa mites as a major problem. The costs 
of mite controls and replacing hives that only live 1-2 years, as 
opposed to living 3-5 years before the arrival of Varroa, are all 
accumulating to the point where Varroa mites are making beekeeping no 
longer financially viable in this country.
    For commercial beekeepers, there are currently only three fast-
acting treatments for Varroa mites: the miticides fluvalinate, 
coumaphos, and amitraz. While there are also a number of folk remedies 
and organic treatments, none work as well as these other treatments and 
all involve more labor and costs to apply. However, Varroa mites are 
adapting and becoming resistant to fluvalinate and coumaphos. Some new 
treatments are in the pipeline but even a new effective miticide will 
only provide a short-term solution because it is only a matter of time 
before the Varroa mite will adapt to that miticide as well, continuing 
the destructive cycle. What beekeepers truly need are long term 
solutions to Varroa mites.
    The beekeeper's best hope is research that can build better tools 
to reduce the size of the Varroa mite problem. Researchers at USDA's 
scientific agencies--the Agricultural Research Service (ARS) and the 
National Institute of Food and Agriculture (NIFA) are on that trail 
right now. In ARS, scientists are working with a total budget of 
approximately $11 million in FY 2014, with approximately $3 million 
targeting Varroa specifically. Additional temporary funding of $1.3 
million in 2013 has been provided on bee health through the Areawide 
Program of ARS. These funds have helped augment the base funds and 
allow scientists to work closely with commercial beekeepers to try and 
improve colony survival.
    ARS scientists are developing improved best management practices to 
help beekeepers deal with immediate issues of overcoming Varroa mites. 
By applying microbiological, genomic, physiological, and toxicological 
approaches, we are creating new tools for beekeepers to build and 
maintain healthy bee populations. For long-term solutions, ARS is 
looking to the genetics of both the mite and the honey bee. ARS has an 
active breeding program designed to increase resistance mechanisms in 
European honey bees. For example, some bees have a propensity for nest 
cleaning and grooming behaviors and these have been exploited in 
breeding programs as control measures. ARS is also working on improving 
epidemiological nation-wide monitoring of pest and diseases, 
biochemical disruption and a host of other possibilities.
    NIFA is supporting extramural research, extension, and educational 
programming to scientists, extension specialists and educators to 
address declines in pollinators. Dozens of competitive and capacity 
grants are focused on novel strategies to manage the Varroa mite, which 
are expected to better protect pollinators from this devastating pest. 
Since 2010, NIFA has awarded competitive grants on pollinator health 
worth an estimated $13 million, including approximately $2.6 million 
targeting Varroa specifically. Varroa does not act alone on bee health 
and thus many of these projects take a holistic approach, looking into 
the multiple factors affecting honey bees and other pollinators. In one 
NIFA funded project, University of Minnesota extension specialists are 
assisting honey bee queen breeders in selecting for hygienic behavior, 
a trait that helps bees defend against Varroa mites and other diseases. 
In another, Cornell scientists are testing the hypothesis that giving 
colonies smaller hives will provide the mites fewer opportunities to 
reproduce and this will lower the per capita level of mite infestation 
of the bees.
    The work at USDA is part of a government-wide response to the large 
and ongoing declines in pollinator populations in the U.S. and world-
wide. The President's FY 2015 budget proposes over $71 million for USDA 
alone to focus on this issue. This includes a $25 million initiative to 
create an Innovation Institute on Pollination and Pollinator Health, a 
competitive program that will be managed by NIFA.
    As a measure of the seriousness with which the Varroa issue is 
regarded, USDA hosted a Varroa Summit in February of this year. More 
than 75 representatives and researchers from beekeeping organizations, 
agricultural commodity groups, the crop protection industry, 
universities and Federal agencies such as APHIS, ARS, NIFA, NRCS and 
EPA attended to discuss research needed to solve the problem of Varroa 
mites. The attendees identified numerous specific short-term and long-
term research priorities. Most of these concerned the need to develop 
the underpinnings for new approaches to controlling Varroa mites: 
finding natural biocontrol agents, developing RNA interference as a 
control measure, developing areawide management practices and improving 
best management practices, and identifying genetic markers and breeding 
for bee traits that will provide Varroa survivability. Attendees also 
recognized the need for more extensive communication between 
researchers and beekeepers for collection of epidemiological and 
economic Varroa mite data and for transmitting new information from 
researchers on techniques for controlling Varroa. One potential outcome 
of the Varroa Summit will be an increased level of collaboration 
between scientists and more public-private and Federal-university 
partnerships.
    But even if the Varroa mite problem were solved today, this would 
not by itself solve all of the problems facing honey bees and 
beekeepers. In the last 20 years, a whole host of new honey bee 
pathogens--viruses, bacteria, fungi, mites--have entered the United 
States. We know that the effects of viruses in particular are 
significantly exacerbated when coupled with the presence of Varroa. 
Colony Collapse Disorder, a syndrome for which scientists still do not 
have a cause, continues to take a toll on apiaries. Exposure to 
pesticides in the environment may be weakening bee colonies, possibly 
making them more susceptible to other stresses. A lack of diversity in 
nectar and pollen sources may also play a major role in stressing honey 
bee colonies. The loss of honey bees may also reflect a much larger 
issue of general pollinator declines, with honey bees acting as an 
indicator species. The relative contributions of different stressors 
for CCD is not well understood and solving this problem will take an 
all hands on deck approach, including research, public education, 
increased foraging lands and public-private partnerships to address CCD 
and the larger loss of pollinators.
    To meet today's increasing pollination demands, we need well over 
three million managed honey bee colonies in this country. To do that, 
we need to make beekeeping profitable again and that starts with 
controlling Varroa destructor.
    Mr. Chairman, I look forward to working with you in support of 
honey bees and pollinator health, a vital link in U.S. food security. 
Thank you again for your time. I would be pleased to answer any 
questions you have on Varroa mites and pollinator health.

    The Chairman. Thank you, doctor. Mr. Cummings?

 STATEMENT OF ARTHUR DANIEL ``DAN'' CUMMINGS, CHIEF EXECUTIVE 
             OFFICER, CAPAY FARMS; CHIEF FINANCIAL
            OFFICER, OLIVAREZ HONEY BEES, CHICO, CA

    Mr. Cummings. Good morning, Mr. Chairman and Members of the 
Committee. Thank you for inviting me to testify this morning on 
the importance of honeybee health to the United States' almond 
industry. My name is Dan Cummings. I am the CEO of Capay Farms 
where I produce almonds and walnuts. Additionally, I am the 
Chairman of the Almond Board of California Bee Task Force and 
have served as Vice Chairman of that board. My almonds are 
delivered to Blue Diamond Growers on whose board I serve. Blue 
Diamond is a nonprofit, farmer-owned marketing cooperative.
    Almonds are grown exclusively in California and are the 
largest tree crop in California with a value of $6 billion. 
Over $4 billion of almonds were exported to the world last 
year. Over 80 percent of the world's almond supply is produced 
in California.
    The honeybee is essential for the global food supply. One 
third of our diet comes from honeybee-pollinated plants. The 
continuing health of the honeybee population is a matter of 
concern to the global agricultural community. Managed honeybees 
are vital to more than 90 bee pollinated crops in the United 
States, and nearly $20 billion in farm income is dependent on 
honeybees. California almond growers depend on honeybees for 
their livelihood. Approximately 1.6 million colonies, 
approximately \2/3\ of all the commercially kept honeybees in 
the United States, are needed to pollinate California's almond 
orchards.
    California almonds are the first and largest crop each 
spring to require honeybees for pollination. Our industry 
partners with beekeepers with whom we share the common goal of 
healthy honeybees to support the future growth of almond 
production. The two industries are inextricably linked. Almond 
pollination has become a primary economic driver of the 
honeybee industry. It may surprise you to learn that almond 
pollination fees to beekeepers nearly equal the value of all 
commercially produced and sold honey in the United States.
    The Almond Board has invested $2.3 million in honeybee 
health research. As a grower-owned cooperative, Blue Diamond 
Growers is the largest single contributor to the Almond Board. 
Project Apis m. has further invested over $2.2 million on 
behalf of honeybees. The Almond Board created a Bee Task Force 
whose members include almond growers and processors, beekeepers 
and researchers. The purpose of this group is to make 
recommendations for research and effective pollination 
practices.
    Fifty-one percent of almond farms are less than 50 acres, 
and over 80 percent of almond farms are owned and operated by 
families. Almonds are the earliest blooming natural food source 
for honeybees. Honeybees found in almond orchards enjoy an 
abundance of natural forage. As a result, hives typically 
increase after almond pollination and bloom.
    Because the almond industry recognizes the essential role 
honeybees play in sustaining the global food supply, it and 
Project Apis m. have together invested approximately $4.5 
million in honeybee research. This is more money than any other 
U.S. commodity has invested in honeybee research. The focus of 
this research is on improving the health of hives, which 
includes improving honeybee nutrition, managing pests and 
diseases effectively, restoring honeybee genetic stock 
diversity, helping honeybees cope with parasites and disease, 
and other areas related to help improve their health and 
longevity.
    Our research has led to several breakthroughs in 
maintaining honeybee health. The focus has been on ensuring 
better honeybee nutrition and the overall improvement of hive 
health. Research has also resulted in establishing best 
practices for dealing with the Varroa mite. This is a pest that 
emerged in the mid-1980s that attacks beehives by weakening and 
shortening the lifespan of honeybees on which they feed. 
Initial feedback from beekeepers has been that those who have 
adopted newer bee management practices experience improved 
honeybee hive health and performance. Our industry is also part 
of an alliance that created a farming guide to promote reduced 
risk and environmentally responsible pest management practices. 
The health of the honeybee is a top priority in the best 
management practices. These guidelines are shared with all 
growers.
    Several promising new bee research programs funded by the 
almond industry are under way. Dedicated research to improve 
honeybee genetic stock has resulted in breeding programs for 
hygienic behavior to help control diseases like the Varroa 
mite.
    Another project extends best practices to queen honeybee 
breeders to assure honeybee health and genetic diversity.
    The almond industry was instrumental in the development of 
MegaBee, a new nutritional supplement for honeybees. California 
almond growers will continue to lead in the investment in 
honeybee research, including honeybee nutrition, improved 
honeybee genetics, the effective management of pests and 
diseases and the impact of pesticides.
    Thank you, Mr. Chairman for holding this important hearing 
on this very critical subject. I will be happy answer any 
questions you may have.
    [The prepared statement of Mr. Cummings follows:]

 Prepared Statement of Arthur Daniel ``Dan'' Cummings, Chief Executive
  Officer, Capay Farms; Chief Financial Officer, Olivarez Honey Bees, 
                               Chico, CA
The Importance of Honeybee Health to the U.S. Almond Industry
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for inviting me to testify this morning on this very important subject.
    My name is Dan Cummings. I am the CEO of Capay Farms in Hamilton, 
California, where I produce almonds and walnuts. Additionally, I am the 
Chairman of the Almond Board of California Bee Task Force and have 
served as Vice Chairman of that Board. The Almond Board of California 
is a Federal Marketing Order administered by the Department of 
Agriculture. Also, I am the Chairman Emeritus of Project Apis m.
    My almonds are delivered to Blue Diamond Growers on whose Board I 
serve. Blue Diamond Growers is a nonprofit farmer-owned marketing 
cooperative. Blue Diamond Growers is the world's largest processor and 
marketer of almonds, founded in 1910 and headquartered in Sacramento, 
California. The company obtains its supply of almonds from its member/
owners and sells them to retail chains and food processing, 
confectionery and food service companies in nearly 100 nations around 
the world. Almonds are grown exclusively in California and are the 
largest tree crop in California with a value of $6 billion. In fact, 
over $4 billion of almonds were exported from California to the world 
last year alone. Almonds are California's number one agricultural 
export.
    Nationally almonds rank in the top three consumer food items 
exported from the United States. Blue Diamond Growers exports for the 
majority of the almond growers in the State of California. Almond 
production continues to expand in order to supply the world. Over 80% 
of the world's almond supply is produced in California. Almonds are 
primarily grown in central California in a 400 mile area from Red 
Bluff, in the north, to Bakersfield, in the south.
The Honeybee is Essential for the Global Food Supply
    The honeybee is essential for the global food supply. One-third of 
our diet comes from honeybee-pollinated plants. The continuing health 
of the honeybee population is a matter of concern to the global 
agricultural community. Managed honeybees are vital to more than 90 
bee-pollinated crops in the United States.
    Nearly $20 billion in farm income is dependent on honeybees, 
directly or indirectly. Honeybee-pollinated crops include almonds, 
apples, cherries, melons, pumpkins, squash and sunflowers. Honeybee-
pollinated seeds are also critical to cattle and livestock that 
ultimately feed on alfalfa.
    California almond growers depend on honeybees for their livelihood. 
We are very concerned about the health of honeybees. Approximately 1.6 
million honeybee colonies--approximately \2/3\ of all the commercially 
kept honeybees in the United States--are needed to pollinate 
California's almond orchards. An almond crop depends on cross-
pollination. Most almond orchards have at least two compatible 
varieties of almonds planted. The honeybees cross-pollinate between 
these varieties in order to establish the crop. Without honeybees, 
there would be no crop.
    California almonds are the first and largest crop each spring to 
require honeybees for pollination. Our industry partners with 
beekeepers with whom we share the common goal of healthy honeybees to 
support the future growth of almond production and other agricultural 
products. California almond growers are significant contributors to 
Project Apis m., a nonprofit organization that brings together 
representatives from the pollination and crop production industries to 
support research aimed at improving the beekeeping industry. I was the 
Chairman of the Board of Project Apis m. during its first 6 years and 
remain a Board member.
    Blue Diamond Growers will contribute $100,000 to Project Apis m. 
this year for research dedicated to healthier honeybees. This is in 
conjunction with Blue Diamond Growers' introduction of several new 
honey almond products.
    The Almond Board of California has funded honeybee research 
beginning in 1976. Since 1995, it has invested $2.3 million in honeybee 
health research. As a grower-owned cooperative, Blue Diamond Growers is 
the largest single contributor to the Almond Board of California. 
Project Apis m. has invested over $2.2 million on behalf of honeybees.
    The Almond Board of California created a Bee Task Force in 2005 
whose members include almond growers and processors, beekeepers and 
researchers. The purpose of this group is to make recommendations for 
research and effective pollination practices. This is being done to 
ensure a future of strong healthy hives in sufficient numbers. I was 
the first grower to chair this committee and still do.
    Together, the Almond Board of California is partnering with the 
California State Beekeepers Association and Project Apis m. that works 
with landowners and managers to grow ``bee pastures'' during the pollen 
deficient winters. This project is funded through a series of grants.
    Fifty-one percent of almond farms are less than 50 acres and over 
80% of almond farms are owned and operated by families either 
individually or in partnership. Almonds are the earliest blooming 
natural food source for honeybees after wintering on supplements. 
Honeybees found in California's almond orchards enjoy an abundance of 
natural forage. As a result, hives typically increase after almond 
pollination and bloom. These larger hives are then ``split'' into 
smaller units by beekeepers. It is best to ensure honeybees have a 
diverse, season-long chain of food sources.
    The Almond Board of California is also participating in a USDA 
grant for advancing ``Integrated Crop Pollination.'' This approach 
integrates honeybees, other managed pollinators like the Blue Orchard 
Bee, and ``bee pasture'' in addition to almonds.
    Because the California almond industry recognizes the essential 
role honeybees play in sustaining the global food supply, it and 
Project Apis m. have invested approximately $4.5 million in honeybee 
research. This is more money than any other U.S. commodity has invested 
in honeybee research. Other industry organizations have invested 
additional funds in honeybee research. The focus of this research is on 
improving the health of hives, which includes improving honeybee 
nutrition, managing pests and diseases effectively, restoring honeybee 
genetic stock diversity, helping honeybees cope with parasites and 
disease, and other areas related to helping improve their health and 
longevity.
    Our research has led to several breakthroughs in maintaining 
honeybee health. Experts agree that beekeeping practices in the U.S. 
have changed more in the last few years than in the last 20 years. The 
focus has been on ensuring better honeybee nutrition and the overall 
improvement of hive health. Honeybees need a variety of food sources in 
their diet for optimum health. The Almond Board of California's support 
was instrumental in the development of a new nutritional supplement for 
honeybees that beekeepers can use in the late summer and fall when 
natural sources of pollen are at low levels.
    Research has also resulted in establishing best practices for 
dealing with the Varroa mite. This is a pest that emerged in the mid-
1980s that attacks beehives by weakening and shortening the life span 
of the honeybees on which they feed. Initial feedback from beekeepers 
has been that those who have adopted these newer bee management 
practices experience improved honeybee hive health and performance.
    Our industry is also part of an alliance that created a farming 
guide to promote reduced-risk and environmentally responsible pest 
management practices based on over 5 years of field data and experience 
in almond orchards. The health of the honeybee is a top priority in the 
Best Management Practices. These guidelines are shared with all growers 
and include recommendations to avoid applications of insecticides 
during bloom; and to minimize exposure by honeybees to any spray by 
avoiding applications when pollen is available and honeybees are 
feeding.
    Several promising new bee research programs funded by the almond 
industry are underway. Over the years, dedicated research to improve 
honeybee genetic stock has resulted in breeding honeybees for hygienic 
behavior to help control diseases like the Varroa mite, which is the 
most serious pest of honeybees. Current research by Dr. Walter Sheppard 
and Sue Cobey at Washington State University is aimed at restoring 
genetic diversity to commercial honeybee stock. By increasing the gene 
pool within breeding stock, honeybees will be better able to cope with 
parasites and pathogens. This project has also developed safe 
collection and preservation techniques for honeybee stock and genetic 
material.
    Another project extends best practices to queen honeybee breeders 
to assure honeybee health and genetic diversity. Dr. Marla Spivak at 
the University of Minnesota leads this research. It has increased the 
proportion of improved stock in commercial breeding lines. It has also 
implemented diagnostic and integrated pest management (IPM) programs 
resulting in better control of bee hive pests with fewer chemicals.
    A third research project being conducted by Dr. Louisa Hooven at 
Oregon State University builds on past research assessing the impact of 
fungicides on honeybees. This work is evaluating the impact of four 
fungicides currently used in almonds on honeybee development.
    The almond industry is the largest single contributor to increasing 
the health of honeybees in America. It is instrumental in the 
development of MegaBee, a new nutritional supplement for honeybees, 
which can be used in the late summer and fall when natural sources of 
pollen are at low ebb. It has helped establish later summer-fall 
feeding practices that are important for strong hives. It developed 
integrated pest management (IPM) approaches for Varroa mite control 
that use fewer chemicals in the hive and new breeding techniques for 
improved honeybee resistance to pests and pathogens.
    In fact, beekeepers who have adopted these newer honeybee 
management practices experience improved honeybee hive health and 
performance. For example, Dr. Frank Eischen of ARS/USDA is conducting 
an ongoing study in Kern County, which indicates that hive build up 
during almond bloom resulted in an average of a 27% increase in hive 
strength. He notes, that at the beginning of almond bloom, the hive 
strength averaged 11 frames of honeybees and at the end of bloom; the 
hive strength averaged 14 frames of honeybees. Under average weather 
conditions, a standard size (referred to as ``strength'') hive of eight 
frames of honeybees at the start of the bloom will increase in size or 
``strength'' to 10-12 frames at the end of the almond bloom.
    This improves in warm weather conditions, like we just experienced 
in February 2014, where a hive of eight to ten frames of honeybees will 
increase to 15 to 16 frames of honeybees. This is an increase in size 
or ``strength'' ranging from 50% and up. Further research is currently 
being conducted on this year's bloom and its impact on the health of 
honeybees.
    Meanwhile, California almond growers will continue to lead in the 
investment in honeybee research, including honeybee nutrition, improved 
honeybee genetics, the effective management of pests and diseases, and 
the impact of pesticides.
    Thank you, Mr. Chairman for holding this important hearing on this 
very critical subject. I will be happy answer any questions you may 
have.

    The Chairman. Thank you, Mr. Cummings. Mr. Stone?

STATEMENT OF JEFF STONE, EXECUTIVE DIRECTOR AND CHIEF EXECUTIVE 
   OFFICER, OREGON ASSOCIATION OF NURSERIES, WILSONVILLE, OR

    Mr. Stone. Chairman Scott, Ranking Member Schrader, Members 
of the Subcommittee, I am Jeff Stone, and I serve as the 
Executive Director of the Oregon Association of Nurseries. I 
have placed into the record my expanded testimony, and I will 
be mercifully brief in my comments before you this morning.
    The Oregon nursery and greenhouse industry is the largest 
sector in agriculture. It is also the second-largest nursery 
state in the country with over $744 million annually in sales. 
Nationally the horticulture industry's production, wholesale, 
retail and landscape service components represent about $163 
billion in economic activity with $1.1 million full- and part-
time jobs.
    I am not going to tell you that the bee deaths that 
occurred in Oregon last summer was not bad. It was. A respected 
landscape company sprayed neonicotinoid pesticides on linden 
trees in flower, which are highly attractive to bees. This 
incident killed 50,000 bees, occurred less than a mile from my 
home office in Wilsonville on National Pollinator Day. I 
couldn't think of a worse set of circumstances.
    While I am not a nursery grower, I work for them and I 
don't even pretend to have the understanding about how to grow 
clean, quality plants, but I do know how to read. And I 
reviewed the label with the agricultural agency about the 
pesticide application. It was done improperly and against what 
the EPA label says. And that is the law.
    The Oregon Department of Agriculture began an investigation 
and instituted a temporary ban of the use of the pesticide 
containing the active ingredient, dynotefuran. I practiced that 
quite a bit, actually. I didn't know how to say it. 
Investigation was completed and the restriction lifted at the 
end of 2013. At the beginning of 2014, the department imposed 
label language restrictions on the pesticides and dynotefuran 
and imidacloprid. For those trees in the Tilia genus, which 
includes linden and basswood trees.
    The concerns around pesticide use and the potential effects 
on bees is very important to all pesticide users, especially 
those involved in agriculture. Oregon farmers depend on bees to 
pollinate many of their crops. They also depend on pesticide as 
tools to combat destructive pests. The furor over the death of 
so many bees caused national attention, but the discussion in 
Oregon was engaged by beekeepers, environmental groups and the 
farm community. Legislation was filed in the state legislature 
that would have moved neonicotinoids to restricted use and 
functionally ban the use of the product in the state. Oregon 
House Bill 4139 could have taken a negative approach in pitting 
interest group against interest group, but that did not happen. 
Instead, stakeholders listened to one another and determined 
that a science-based approach to pollinator health would lead 
to a better solution.
    So over the next 2 years, stakeholders will roll up their 
sleeves and work with Oregon State University, our land-grant 
university, legislators and state agencies to determine the 
most proper path forward. And there is science out there, quite 
a bit, actually. But what we hear in the press are from the 
extremes. However, Oregon chose not to cherry-pick the science 
that suited a political point, instead doing the work which I 
urge Congress to do.
    We see a lot of white papers and press releases, but let us 
talk about what is actually happening on the ground. For a 
retailer who sprays pesticides indoors, that is away from bees, 
at risk was the critical Christmas season plant, poinsettias, 
who have a common pest called the white fly. Now, nobody is 
going to buy let alone sell a plant that has a pest on it at 
your garden center. But the large garden center during this 
temporary ban was required to find an alternative pesticide for 
the whitefly and ended up using three times the amount of 
pesticide than they ordinarily would. Normally, it is a small 
drench application. So they put it right in the soil for the 
highly effective neonics. Instead, a less-effective pesticide 
was used, taking more time and making the business really 
consider the fact for human health because it has far more 
toxicity. For the operator, it is just not a matter of if 
alternatives are present but are they as effective and can you 
get by with using less?
    Without a full pest management program, whiteflies will 
quickly develop resistance and threaten other crops including 
cotton in other parts of this country. A pest management plan 
was developed in part with the nursery industry and the cotton 
industry with USDA. Pest and disease problems are real, and 
they can cost agriculture and threaten our natural environment.
    For pollinator health, there is no smoking gun. But as my 
written testimony explains, there are several factors for 
Colony Collapse Disorder. Our industry has faced many 
challenges, Mr. Chairman, from invasive pests and pathogens and 
regulatory obstacles, and we are still recovering from the 
housing collapse that took out a third of my membership just in 
the past 5 years.
    But Oregon growers are innovative, and we want to work 
through issues and engage those that may disagree with us on 
this very emotional issue, but we need to let science be our 
guide and not emotion. And it is my sincere hope that Congress 
engages in the same spirit. Thank you for your time and 
attention.
    [The prepared statement of Mr. Stone follows:]

    Prepared Statement of Jeff Stone, Executive Director and Chief 
  Executive Officer, Oregon Association of Nurseries, Wilsonville, OR
    Chairman Scott, Ranking Member Schrader, Members of the 
Subcommittee, I am Jeff Stone and I serve as the Executive Director of 
the Oregon Association of Nurseries. I welcome the opportunity this 
morning to provide comments for your consideration relating to 
pollinator health.
    This morning I will discuss the merits of a discussion on 
pollinator health and its importance to the agricultural community as 
well as our environment. I will address how Oregon's nursery and 
greenhouse industry uses neonicotinoids. I will also talk about the 
potential impacts to agriculture if this chemical class is restricted 
or banned without proper science-based facts. Last, I will give a 
little insight on how Oregon brought together stakeholders to chart out 
a reasoned path on this important issue.
Oregon Nursery Industry Background
    The nursery and greenhouse industry is the largest agricultural 
sector in Oregon. Oregon represents the nation's second largest nursery 
state with more than $744 million in sales annually. The industry is a 
traded sector, much like you would see in high technology or other 
cluster businesses. Nearly 75 percent of the nursery stock grown in our 
state leaves our borders--with more than \1/2\ reaching markets east of 
the Mississippi River. Our reach extends to international markets as 
well. Nursery association members represent wholesale and Christmas 
tree growers, retailers and greenhouse operations. Nationally the 
horticultural industry's production, wholesale, retail, and landscape 
service components have annual sales of $163 billion and sustain over 
1,150,000 full and part-time jobs.
    As a proud part of U.S. agriculture, we certainly understand the 
importance of pollinators to the agricultural industry and our natural 
environment. We also recognize the importance of having effective 
pesticides with low environmental impact. Much of the debate today will 
be over Neonicotinoids. This chemical class, when used properly, is 
vital to the success of our industry. They are important tools in 
defending trees, shrubs, and plants against destructive invasive 
species like the Japanese Beetle, Hemlock Woolly Adelgid and Asian 
Longhorned Beetle and employed as part of a management strategy to 
control chemical-resistant whitefly species.
Pollinator Health Is Critical to the Nursery and Greenhouse Industry
    In the summer of 2013, a misapplication of pesticides on Linden 
trees in Wilsonville resulted in the death of 50,000 bees due to acute 
toxicity, or their direct contact with the insecticide. Oregon's 
Department of Agriculture (ODA) conducted an investigation and 
instituted a temporary rule restricting the use of pesticides 
containing the active ingredient dinotefuran. The investigation was 
completed and the restriction lifted in December 2013. Effective at the 
start of 2014 the department has imposed label language prohibiting the 
use of products containing dinotefuran and imidacloprid for use on 
trees in the Tilia genus, which include linden and basswood trees--
these trees are highly attractive to pollinators when in flower.
    The concerns around pesticide use and potential effects on bees are 
very important to all pesticide users, but especially those involved in 
agriculture. Oregon farmers depend on bees to pollinate many of their 
crops. They also depend on pesticides as tools to control destructive 
pests. Similarly, commercial beekeepers rely on healthy crops to 
optimize their pollination services. This means that Oregon growers and 
beekeepers have a lot at stake in this conversation. Both of us want to 
make sure that protecting bee health, and retaining pesticides as an 
effective tool, are not mutually exclusive.
    The association conducted extensive outreach to our members--
including retailers, greenhouse operators and wholesale growers--to 
increase awareness of the pollinator issue. We also wanted to assess 
the use of neonicotinoids and understand the number of licensed 
pesticide applicators. Beyond the dramatic headlines, the nursery 
industry expressed its support of the ODA action and the industry's 
reservations regarding an outright ban of neonicotinoids. This chemical 
class, first developed in the 1990s, represents advancement over other 
chemical classes making them safer to both human and pollinators and 
are used as part of pest mitigation strategies by our greenhouse and 
nursery members. In some cases, neonicotinoids are approved regulatory 
treatments for certification and interstate movement of nursery and 
greenhouse crops.
    While seven states have made efforts to pass anti-neonicotinoid 
legislation, it is critical that the Federal Government's efforts be 
science-based. Congress should listen to stakeholders from the green 
industry, the environment community and academia. This is what we did 
in Oregon and we believe it could serve as a national model to give 
voice to disparate views while working toward a common goal--improving 
pollinator health. The Environmental Protection Agency's labeling 
program is intended to create a unified national regulatory program 
that prevents patchwork lawmaking by states. One standard is critical 
for commerce between the states.
Science and Reason Should Go Hand in Hand
    Bee health is important to all of us. Nobody wants to see adverse 
incidents that add to the decline of bee populations. That being said, 
it is easy to let emotion drive the conversation. Instead, we should 
let science be our guide.
    Based on current science, the Environmental Protection Agency (EPA) 
continues to allow application of neonicotinoids with appropriate 
guidelines. These chemistries are among the safest available to combat 
many pests. We encourage Congress to direct the research community to 
pursue its work on this issue without bias and identify the appropriate 
steps to alleviate environmental and pest pressures on pollinator 
health.
    It is important to note that neonicotinoids represent a tremendous 
advancement over older pesticide treatment options. When used properly, 
neonicotinoids effectively control problem insects, while exhibiting 
less impact on non-target insects (including bees). Their ability to 
provide residual control means fewer applications and less applicator 
exposure. The OAN and other nursery industry leaders fear that 
decisions made to restrict or prohibit use of such materials, without 
scientific merit, will undermine research and development into new and 
reduced-risk materials going forward.
    These calls to ban neonicotinoids continue despite a cadre of 
reports that suggest their role in declining bee health is small. The 
USDA's 2013 report on Honey Bee Health put pesticides, in general, near 
the bottom of the list of factors impacting bee health. The report 
highlighted other issues like colony management, viruses, bacteria, 
poor nutrition, lack of genetic diversity, and habitat loss as more 
impactful. The report continued to stress that, ``the single most 
detrimental pest of honeybees'' is the parasitic Varroa mite, first 
discovered in the U.S. in 1987. Recent reports from the Australian 
Governments Pesticides and Veterinary Medicines Authority (equivalent 
to our EPA) supported the conclusions of the USDA report. The 
Australian report said that even though neonicotinoid pesticides are 
used there, Australia has not suffered from honey bee colony declines, 
like those seen in Europe and the U.S.
    Since reports of significant losses to bee colonies were publicized 
in 2006, researchers and regulators have been looking for possible 
causes. A Colony Collapse Disorder (CCD) Steering Committee was formed 
at the national level to address the concerns over bee losses. Several 
individuals from the Steering Committee along with Pennsylvania State 
University met in October 2012 for a National Stakeholders Conference 
on Honey Bee Health to discuss future actions to promote health and 
mitigate risks to managed honey bees in the U.S. In May 2013 the U.S. 
Department of Agriculture (USDA) and EPA released a comprehensive 
scientific report on honey bee health. The report concludes that there 
are multiple factors that play a role in honey bee colony declines. 
Findings from the report include:

  <bullet> There are multiple diseases associated with CCD, many of 
        which are amplified by the Varroa mite.

  <bullet> Stakeholders should adopt Best Management Practices (BMPs) 
        to enhance bee health.

  <bullet> There is need to significantly improve genetic diversity in 
        U.S. bee populations.

  <bullet> Bees require increased nutritional options (forage) to 
        lessen susceptibility to stressors.

  <bullet> There should be continued research on pesticide impacts at 
        field-relevant exposures.

  <bullet> Stakeholders need greater collaboration and information 
        sharing among stakeholders to facilitate adoption of BMPs that 
        are critical to improving bee health.

    While the current research does not point to neonicotinoids as a 
primary factor in bee health decline, we know that it may be tempting 
to restrict use for precautionary reasons. Unfortunately this approach 
ignores the important role these products play in managing pests that 
can have devastating effects on the environment. Neonicotinoids provide 
unique environmental, economic and public health benefits, such as:

  <bullet> Effective protection against invasive species which can harm 
        important urban landscapes, including the Emerald Ash Borer 
        which can devastate urban forests.

  <bullet> Systemic insect control not provided by other chemical 
        classes.

  <bullet> Lower impact on many non-target organisms than older 
        chemistries, protecting natural enemies, which allows for 
        greater use of IPM strategies.

  <bullet> Effective control of disease carrying vectors.

  <bullet> Extended control, which limits the needed number of 
        applications, and therefore limits the exposure to workers.

  <bullet> Control of pests that are resistant to other chemical 
        classes.

    The Environmental Protection Agency (EPA) has not followed Europe's 
lead by suspending or banning the use of neonicotinoid pesticides. 
Instead, the EPA has been active on the pollinator issue by increasing 
the level of funding for research into integrated pest management, 
which has resulted in a reduction in the use of pesticides. Several 
studies, including a National Academy of Sciences study on the loss of 
pollinators, chaired by University of Illinois entomologist May 
Berenbaum, indicated that there is little evidence to indicate that 
banning this class of chemicals would have any positive effect.
The Congress and Obama Administration Should Focus on Solving the 
        Problem
    There is legislation pending before the House Agriculture Committee 
(H.R. 2692, the Saving America's Pollinators Act) introduced by Oregon 
Congressman Earl Blumenauer (D-OR) in response to the bee incident in 
the summer of 2013. The bill would effectively put a national 
moratorium on most neonicotinoid applications until an array of 
studies, including multi-year ``residue build-up'' evaluations can be 
completed. The bill's proposed moratorium could be lifted only if a 
final determination is made that the pesticides ``will not cause 
unreasonable adverse effects on pollinators.''
    On February 24, 2014 the Pollinator Protection Caucus of the U.S. 
House of Representatives, chaired by Congressmen Denham (R-CA) and 
Hastings (D-FL), held a briefing on pollinator health and invited four 
groups to participate. AmericanHort's regulatory and legislative 
affairs director, Joe Bischoff, was asked to present the horticulture 
industry's perspective on the issue. During the briefing, Dr. Bischoff 
emphasized the importance of a holistic approach to research on the 
issue. He stressed that, ``no concerned communities, including the bees 
themselves, would be served if we chase a red-herring and point fingers 
at an easy target like pesticides, for the purpose of political 
expediency.''
    When considering regulations surrounding pesticides, we feel it is 
important to look at what regulations are already in place. All 
pesticides used in Oregon must go through registration processes 
mandated by the U.S. Environmental Protection Agency (EPA) and Oregon 
Department of Agriculture (ODA). At the Federal level this happens 
under the Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA). 
Initial and ongoing re-registration is subject to a substantial review 
process. Registered products must meet the high standard of having ``no 
unreasonable adverse effect on health or the environment.'' This means 
that the pesticides of concern in these cases have had extensive safety 
testing including:

  <bullet> Honeybee acute contact toxicity (all outdoor use products)

  <bullet> Honey bee toxicity of residues on foliage (if high acute 
        toxicity and exposure likely)

  <bullet> Field testing for pollinators (specific conditions)

    While we can understand the concerns of beekeepers, and the public 
at large, the issue of declining bee populations unfortunately has no 
simple answer. In fact, research on Colony Collapse Disorder (CCD) has 
highlighted a complex interaction of factors that play a role in bee 
health. No singular cause of the problem has been found. While 
pesticides are often noted as one factor, they are not considered the 
primary one.
    The Nursery industry wishes to work with the EPA to stress the 
message of stewardship and compliance with label instruction. However, 
in the meantime we have growing concerns over the EPA taking further 
steps on pollinator protection through administrative action which 
would substantially affect turf and ornamental applications. The use of 
``advisory label language'' is understandable when faced with 
unforeseen circumstances. However, we are receiving signals from a 
variety of stakeholders that the Administration is considering 
extending the label changes to other products that are used for foliar 
sprays. It is critical that Congress and the Administration understand 
that moving the industry toward specific application methods for 
systemic products (such as liquid solution or the use of dry broadcast 
formulations) without consideration of the efficacy and available 
alternatives will not solve the problem of declines in pollinator 
health.
Oregon Can Serve as a Model in Collaboration
    While the furor over the death of bees received national notoriety, 
the discussion in Oregon was engaged by beekeepers, environmental 
groups and farm organizations. The initial bill mirrored the Federal 
bill introduced by Congressman Earl Blumenauer and would have moved 
neonicotinoids to a restricted use pesticide and substantially ban the 
use of the product in the state. Oregon House Bill 4139 could have 
taken a negative approach and pitting interest group against interest 
group--but that did not happen. Instead, stakeholders listened to one 
another and determined that a science-based approach to pollinator 
health would lead to a better solution. Over the next 2 years, 
stakeholders will roll up their sleeves and work with our land-grant 
university (Oregon State University), legislators, and state agencies 
to determine the most appropriate path forward. It is critical we work 
with interested parties to examine how to study this issue further and 
create a communication effort for the general public and industry. We 
all benefit when we move in a reasoned manner to evaluate trends in 
pollinator health, including the use of best management practices.
    We must acknowledge our stewardship role in using these 
chemistries. When we use them, we must deploy them as part of a larger 
management strategy, and always remember to use them only as directed 
by the EPA-approved label. It is important that consequences and 
tradeoffs be discussed and that a decision on neonicotinoids not lead 
to economic harm, erosion of pollinator health, or increased human 
safety concerns during the application of pesticides at the nursery 
operation.
    The nursery and greenhouse industry is working through our national 
association, AmericanHort, to engage with various chemical and 
registrant associations on the neonicotinoid issue and to conduct a 
survey of use at a national level. We believe an expanded look at 
pollinator health should be conducted and the nursery and greenhouse 
industry should be a reasoned voice in the discussion.
    The public, environmental groups and agriculture have an 
opportunity to set aside short-term political points and work together 
on pollinator health. It is my sincere hope that Congress engages in 
the same spirit. Perhaps by working alongside one another, we can do 
what is right for pollinator health, environmental stewardship and 
economic prosperity of our agricultural sector.
    Thank you for your time and attention.

    The Chairman. Thank you, Mr. Stone. The linden tree is one 
of my favorite trees. There are a tremendous number of them on 
the Capitol if you noticed.
    Dr. Fischer?

          STATEMENT OF DR. DAVID L. FISCHER, DIRECTOR,
            POLLINATOR SAFETY & MANAGER, BAYER NORTH
      AMERICAN BEE CARE CENTER, RESEARCH TRIANGLE PARK, NC

    Dr. Fischer. Honorable Members, my name is Dr. David 
Fischer, and I am here today as the Director of Pollinator 
Safety on behalf of Bayer. I have been involved in the field of 
environmental toxicology and risk assessment for 27 years, 
published more than 20 peer-reviewed scientific papers and have 
supervised hundreds of studies evaluating crop protection 
products. I have led or participated in numerous scientific 
forums on bee health research, and I am responsible for the 
management of Bayer's new Bee Care Center in North America. I 
thank you for the opportunity to appear before this Committee 
and for your interest in promoting pollinator health. Our 
industry recognizes the importance of honeybees to American 
agriculture, and we fully support collaborative efforts to 
promote pollinator health and sustainable agricultural 
practices.
    Although the number of commercial honeybee colonies in the 
United States has been relatively stable since the late 1990s, 
bee losses following the winter season have averaged about 30 
percent in recent annual surveys, more than twice what has been 
the historical expected average. Fortunately, beekeepers have 
been able to build up their colony numbers to meet crop 
pollination demands, but these losses highlight the need for 
more effective measures to promote bee health.
    Most scientists and bee experts agree that multiple factors 
can negatively impact honeybee health. These include parasites, 
diseases, adverse weather, habitat loss, crop and hive 
protection products, nutritional deficiencies and hive 
management practices. Although some stressors are more 
important than others, the solution to bee health requires a 
comprehensive approach as no single factor is solely 
responsible.
    A broad stakeholder group including members of the crop 
protection industry is working with the regulatory agencies to 
improve our understanding of pollinator risk assessment, 
particularly as it relates to a relatively new class of 
agriculture insecticides, the neonicotinoids. These products 
have been widely adopted by farmers and have replaced many 
older insecticides because of their effectiveness against 
destructive pests and they have more favorable environmental 
profiles. Comprehensive reviews of studies and databases 
comprising 15 years of research have shown these products do 
not represent a threat to honeybee colony health.
    We strongly endorse ongoing research in meaningful 
stewardship practices, including the adoption of best 
management practices to avoid unwanted pesticide exposure. 
Although protecting honeybees from the unintended exposures to 
pesticides is a commitment shared by all agricultural 
stakeholders, this will have little practical consequence until 
we address the much broader and more significant threats to 
colony health. One threat in particular, which has been 
mentioned by everybody, is the Varroa mite, an invasive 
parasite identified by the United States Department of 
Agriculture as the single-most detrimental pest of honeybees 
and one most closely associated with colony decline. 
Understanding the impact of this parasite and how to best 
manage its destructive potential remains a critical gap in our 
effort to improve honeybee health.
    The recent Varroa Summit sponsored by the USDA provided a 
forum for international experts to discuss areas of research 
that one day may provide relief. Other recent Federal 
initiatives such as those of the Natural Resources Conservation 
Service for both increased forage options for beekeepers, 
including the management of public lands to increase available 
forage for pollinators, could have a positive and lasting 
impact on bee health.
    Although more research conducted under real-world 
conditions is needed to evaluate the effectiveness of these 
programs, engagement by all agricultural stakeholders is 
essential.
    For more than 25 years, Bayer crop science has been 
committed to finding solutions to improve honeybee health. Our 
Bee Care Program was established to bring this experience and 
knowledge of bee health under one coordinated initiative, which 
includes opening our North American Bee Care Center, a state-
of-the-art facility dedicated to improving bee health through 
collaborative research, education and training; launching our 
fluency agent, an innovative seed application technology to 
reduce potential exposures to honeybees during corn seed 
planting; implementing our Sentinel Hive Program in 
collaboration with beekeepers to monitor the health of colonies 
associated with agricultural production; developing our novel 
Varroagate technology and new chemistry to aid beekeepers in 
managing destructive Varroa mites; training more than 350 of 
our employees in North America as bee care ambassadors to 
promote bee health awareness in their local communities; and 
collaborating with leading researchers and participating in 
major scientific forums to remain current on the latest 
advances as well identify areas of fruitful bee research.
    Pollinators and crop protection products are critical to 
agriculture. The inherent complexity and broad ramifications 
associated with pollinator health means that state and Federal 
Government will continue to play a vital role in helping to 
support both bees and agriculture. Our industry is committed to 
stewardship and the protection of beneficial insects, and we 
look forward to working with our government agencies in 
measures that protect bees and ensure agricultural 
sustainability.
    Thank you once again for the opportunity to address this 
Committee.
    [The prepared statement of Dr. Fischer follows:]

Prepared Statement of Dr. David L. Fischer, Director, Pollinator Safety 
  & Manager, Bayer North American Bee Care Center, Research Triangle 
                                Park, NC
    My name is Dr. David Fischer and I am providing this testimony as 
the Director of Pollinator Safety, on behalf of Bayer. I have been 
involved in the field of environmental toxicology and risk assessment 
for 27 years, published more than 20 peer-reviewed scientific papers 
and have supervised hundreds of studies evaluating the effects of crop 
protection products on pollinators. I have led or participated in 
numerous scientific forums on bee health research and am responsible 
for the management of Bayer's Bee Care Center in North America.
    Bayer welcomes the invitation to appear before the United States 
House of Representatives Subcommittee on Horticulture, Research, 
Biotechnology, and Foreign Agriculture, to review current research and 
management strategies regarding insect pests and pollinators. For more 
than 25 years, Bayer has been committed to environmental stewardship 
and the protection of beneficial insects. We recognize the importance 
of honey bees to agriculture and fully support collaborative efforts to 
promote pollinator health and sustainable agricultural practices.
    Of the many insect pollinators, none is more valuable to 
agriculture than the honey bee. The value of these insects (as measured 
by crop yield and quality) has been estimated at $15-$20 billion 
annually. Honey bees are important not only because they are efficient 
and general pollinators, but also because their colonies can be managed 
and moved wherever needed, which is especially useful given the 
demanding requirements for pollination services in American 
agriculture. The utility of these pollinators is not without its 
challenges, however. Commercial beekeepers have the difficult job of 
maintaining colony health over diverse geographies, often while facing 
unfavorable environmental conditions.
    The number of honey bee colonies in the U.S. steadily declined from 
a peak of 5.5 million in 1950, primarily due to a reduced post-war need 
for honey as a sugar replacement and a decreased interest in 
beekeeping. Since the late 1990s, the number of managed colonies has 
stabilized at around 2.5 million--more than \1/2\ of which are needed 
annually to pollinate the California almond market. Although colony 
losses of 15 percent are not unusual following the winter season, bee 
losses in the U.S. have averaged around 30 percent in recent annual 
surveys. Fortunately, beekeepers have been able to build up their 
colony numbers to meet crop pollination demands, but such losses 
highlight the need for more effective measures to promote bee health.
    The first step in addressing this problem is the recognition that 
no single factor is solely responsible. Most scientists and bee experts 
believe that numerous stressors can negatively impact honey bee 
health--including parasitic mites, diseases, adverse weather, habitat 
loss, crop and hive protection products, nutritional deficiencies, and 
hive management practices. It is important to note that not all factors 
have equal significance to colony health, nor can the effects of some 
be realistically mitigated (e.g., adverse weather). It is equally 
important to understand that the solution to bee health requires a 
comprehensive approach.
    Knowing the factors that affect bee health is crucial, but 
determining the relative importance of each is even more significant, 
as it provides a clear roadmap to effective management. A broad 
stakeholder group, including members of the crop protection industry, 
are working with our regulatory agencies to improve our understanding 
of pollinator risk assessment, particularly as it relates to 
agricultural insecticides. Contrary to the opinion of some anti-
pesticide groups, extensive research has shown that these products do 
not represent a long-term threat to bee colonies. Comprehensive reviews 
of studies and databases comprising 15 years of research were recently 
published by a diverse group of researchers and directly challenge 
unsubstantiated claims against pesticides as a significant cause of 
colony decline.
    Despite the absence of a clear connection to colony health, our 
industry will continue to work with regulators to avoid unwanted 
pesticide exposures, through effective product labeling and the 
implement of meaningful stewardship actions that help minimize harmful 
interactions. We believe these measures have been quite successful, as 
the number of pesticide exposures to foraging bees is relatively rare, 
especially when considering the many millions of acres that are treated 
each year. Although any loss of bees associated with agricultural 
production is of concern, it is important to remember that infrequent 
accidental exposures are not indicative of the general health of honey 
bee colonies.
    If the use of agricultural pesticides is not a major factor, then 
what is responsible for the decline seen in honey bee health? We may be 
closer to understanding this phenomenon than some might think. Large 
multi-factorial field research studies conducted in the U.S., Canada, 
Belgium, France and Germany all report that poor bee health correlates 
well with presence of parasitic mites and bee diseases. Correlation 
does not mean causation, but it does provide a useful map in attacking 
this important problem. This is especially significant when considering 
the biology and impact of the Varroa mite parasite on honey bee 
colonies in North America.
    The Varroa mite is an exotic parasite introduced to North America 
during the 1980s. It feeds on honey bees and reproduces in the 
developing bee brood, while transmitting serious diseases. Immediately 
following its introduction, the number of colonies in Canada and the 
United States dropped precipitously, as beekeepers struggled to find a 
way to manage this destructive pest. A primary method of controlling 
Varroa infestations is through the use of miticides applied directly to 
the hive, but proper monitoring and timing are crucial. Though the use 
of miticides can be effective, resistance management and the lack of 
suit able alternative methods remain a concern among beekeepers.
    The U.S. Department of Agriculture (USDA) and the Agricultural 
Research Services (ARS) have been at the forefront of this issue. The 
2013 report from the National Stakeholders Conference on Honey Bee 
Health provided a comprehensive assessment of the most important 
factors affecting colony health. Of particular concern, as noted in the 
report, is the recognition of the Varroa mite as the ``single most 
detrimental pest of honey bees'' and one most closely associated with 
over-wintering colony decline. Recent scientific research has shown 
that the winter survival of honey bee colonies is largely dependent on 
the level of Varroa infestation and the higher colony losses seen in 
recent annual surveys appear to support this conclusion.
    Understanding the impact of this parasite and how best to manage 
its destructive potential remains a critical knowledge gap in our 
effort to improve honey bee health. As a follow up to the stakeholder 
report, the USDA recently sponsored a Varroa Summit, providing a forum 
for international experts to discuss areas of research that one day may 
provide relief for one of the most persistent problems facing our 
nation's beekeepers. Our success in combating this pest will only come 
from a continued focus and cooperative effort among all bee 
stakeholders.
    Although the effects of the parasitic Varroa mite and its 
associated diseases are among the most significant threats to honey bee 
health, other factors require serious attention. Recently, 
representatives from our industry participated in a meeting with the 
Administration's Office of Science and Technology Policy (OSTP) and 
Domestic Policy Council (DPC) to discuss Federal initiatives on 
pollinator health and areas of potential collaboration with 
agricultural interests. Part of this discussion centered on initiatives 
by the Natural Resources Conservation Service (NRCS) to promote 
increased forage options for commercial beekeepers, as well as the 
management of public land to increase available forage for pollinators.
    Initiatives aimed at Varroa mite management and increased forage 
options for bees can have a positive impact on pollinator health and 
sustainability. However, more research is needed to fully evaluate the 
effectiveness of these measures, especially under real-world 
conditions. To accomplish this objective, engagement by all 
agricultural stakeholders is essential.
    As a leader in the agricultural industry, Bayer is committed to 
finding solutions to improve honey bee health. Bayer's Bee Care Program 
was established to bring our experience and knowledge of bee health 
under one coordinated initiative. This effort includes the following:

  <bullet> The North American Bee Care Center is a $2.4 million state-
        of-the-art facility that opened on April 15 at our Research 
        Triangle Park, NC, headquarters. The center brings together 
        collaborative research and education resources fully dedicated 
        to bee health, housing a full laboratory and research apiary, 
        honey extraction and workshop space, along with offices, 
        meeting rooms, and interactive displays for pollinator 
        research, education and training.

  <bullet> Bayer has developed a new seed application technology to 
        help reduce potential exposure to honey bees during seed 
        planting. This Fluency Agent has been shown to significantly 
        reduce dust and insecticide exposure when compared to the 
        standard lubricants used by farmers to improve flowability and 
        planting uniformity.

  <bullet> As part of our commitment to research and stewardship, Bayer 
        developed a Sentinel Hives Program, which is designed to 
        monitor the health of selected colonies in North America 
        associated with agricultural production. Working 
        collaboratively with beekeepers, this ongoing initiative will 
        evaluate best management practices to improve colony health.

  <bullet> Bayer's novel ``Varroagate'' technology represents a 
        potential new tool to aid beekeepers in managing destructive 
        Varroa mite populations through an innovative means of limiting 
        Varroa infestations resulting from mites carried by foraging 
        bees to the hive.

  <bullet> Bayer has trained more than 350 of its employees in North 
        America as ``Bee Care Ambassadors'' to promote bee health 
        awareness in their local communities.

  <bullet> Our scientists collaborate with other researchers and 
        participate in major scientific forums to remain current on the 
        latest advances, as well as identify areas of fruitful bee 
        research.

    Other companies in our industry are engaged in similar activities, 
working with multiple stakeholders to promote bee health. Because of 
the inherent complexity and broad ramifications associated with 
pollinator health, state and Federal Government will continue to play a 
critical role in helping to support both bees and agriculture. Our 
industry is committed to stewardship and the protection of beneficial 
insects and we look forward to working with our government agencies in 
measures that protect bees and ensure agricultural sustainability.
    Honey bees and crop protection products are both critical to modern 
agriculture. Although many issues associated with honey bee health are 
not new, the demand for pollination services has never been greater. It 
is only through a collaborative effort involving government, university 
research, private industry, commercial beekeepers and farmers that we 
can hope to protect this vital resource and ensure that American 
agriculture remains the envy of the world.
    Thank you once again for the opportunity to address this Committee.

    The Chairman. Thank you, Dr. Fischer, and we have been 
joined by Mrs. Vicky Hartzler and by the Ranking Member, Collin 
C. Peterson of the full Committee. And I am glad to have both 
of you here.
    Just a reminder before we get into the questions, we will 
go in order by rank, and then we will go in order of attendance 
with the one exception that we will let Mr. Peterson go first. 
And that reminded me.
    Dr. Pettis, most of my questions will be for you as to the 
lead researcher for the USDA with regard to this issue. Our 
witnesses' statements, both written and oral, suggest that the 
Varroa mite is the single most detrimental problem affecting 
honeybee health. Do you agree with that and that the research 
on this pest is likely the task at hand, if you will, that we 
should address for the honeybees?
    Dr. Pettis. Very good question. I would say that if you had 
to single out one single individual factor in bee health it was 
the one thing, if we could eliminate it, it would have a big 
impact. I will say there is a lot of confusion about what 
Colony Collapse Disorder is. It gets mentioned by the media, 
and the media loves it. We define Colony Collapse Disorder as 
the absence of Varroa, the absence of damaging levels of 
Varroa. So we don't think that Varroa mites have much of 
anything to do with Colony Collapse Disorder, at least not 
directly. So it is, again, a mixed bag. If we had to single out 
one thing, Varroa mite would certainly probably be it, but it 
is certainly not the only thing going on in bee health.
    The Chairman. And this gets to some of your previous 
indications that there are some constituencies that want to 
place the blame squarely on pesticides, particularly the 
neonicotinoids for honeybee colony loss. In Australia, 
neonicotinoids are registered just as they are in the United 
States as seed treatment. Beekeepers don't experience the 
losses that we have here in North America as well as Europe. 
The Varroa mite is not in Australia, is that correct?
    Dr. Pettis. Correct.
    The Chairman. So just by definition, if we are making 
decisions based on the facts, without a mite problem, growers 
in Australia don't have the same impact.
    Dr. Pettis. I think other places around the globe, the 
beekeepers have not suffered as they have in the United States. 
U.S. beekeepers have suffered higher losses, although Europe 
has also suffered some fairly high losses when you look at 
winter losses. Australia is the only exception that doesn't 
have Varroa. So around the globe where honeybees are managed, 
Australia is the only continent that does not have Varroa.
    The Chairman. So we are seeing this in South America and 
other continents?
    Dr. Pettis. Varroa is widespread everywhere else in the 
world.
    The Chairman. The U.S. EPA is involved in ongoing 
litigation regarding the registration of several neonicotinoid 
pesticides. Would the data from Australia--these pesticides are 
being used in Australia is my understanding. Is it fair to 
suggest that regulatory agencies would be ill advised to 
oversimplify this problem in taking action against pesticides 
without the proper science and considering the other factors 
involved in this issue?
    Dr. Pettis. Chairman Scott, I would like to remind you that 
I am from the USDA and not from EPA----
    The Chairman. Thank you.
    Dr. Pettis.--but I will do my best.
    The Chairman. That is why you are here.
    Dr. Pettis. Thank you.
    The Chairman. I mean, because you are--we don't allow the 
EPA to come in. I'm kidding.
    Dr. Pettis. Right.
    The Chairman. I am kidding.
    Dr. Pettis. I think the level of agriculture in Australia--
I am actually fairly familiar with the beekeeping in Australia, 
and the level of agriculture is not what it is in the United 
States. We have a much more advanced agricultural system, much 
more agriculture going on here.
    I think the reason the neonicotinoid group gets mentioned a 
lot is the fact that it represents a new exposure to 
pollinators and that it is moving systemically in the plant, 
and it can be found in nature in pollen, unlike more 
traditional pesticides. But we still have issues with exposure 
in those realms as well.
    So I don't have a strong opinion one way or the other, 
other than that the neonic raises a new level because of the 
exposure route.
    The Chairman. Thank you for answering those questions, and 
again, we need to resolve this issue. It is extremely important 
to the United States as well as many other continents and 
countries, and we just need to make sure we take a fact-based 
approach and resolve this based on science and not emotion.
    Mr. Schrader?
    Mr. Schrader. I yield some of my time to--oops. Okay. I 
guess I won't then.
    The Chairman. Sorry.
    Mr. Schrader. No, it is fine. Well, I will go back to Dr. 
Pettis here. Can you talk about best management practices that 
are coming out? When do you think they are going to be out and 
what do you think they are going to be including?
    Dr. Pettis. Well, we have, as you noticed, Mr. Cummings was 
mentioning these public-private partnerships. We have been 
working with groups like Project Apis m. to try to develop some 
of these best management practices. We have some already, but 
Varroa mite in particular changes it. It becomes resistant to 
various chemicals that we use to control it. So we are always 
having to adapt those best management practices. We have some 
already in place. Project Apis m. and other groups have put 
together some of these who are constantly adopting them.
    Mr. Schrader. Can you describe some of the practices?
    Dr. Pettis. Again, taking a kind of an integrated approach, 
not treating for Varroa unless it reaches a certain threshold. 
We know that the bees can suffer a certain amount of damage 
without using chemicals to treat them because the chemicals 
themselves that the beekeepers use are not benign. The other 
things are we are doing work with breeding and breeding 
resistant stock. We have a whole lab, ARS lab dedicated to 
breeding and genetics where we have developed a trait that 
confers resistance and also a line of bees that confer some 
resistance to Varroa mites. And in general, there are other 
aspects of bee health where we look at the timing of feeding. 
Like if we have to feed bees that are on a pollination contract 
and it is not so nutritious, we can feed bees supplemental food 
and help get them through that crunch time on a certain 
pollination contract. Cranberries come to mind, watermelons, 
things like that. They are not totally nutritious, but the bees 
have to be there for pollination so we can do supplemental 
feeding.
    So I would say these--things are ongoing.
    Mr. Schrader. What about the genetic mapping? There is a 
lot of controversy nowadays on genetic modification. We have 
been doing it for centuries, frankly. We are just doing it 
differently nowadays. What are the prospects for improving bee 
genetics even beyond what you have described?
    Dr. Pettis. We are looking for marker-assisted traits in 
bees that would confer, say, Varroa resistance. We are not 
going to have a bionic bee. We are not going to modify bees in 
that way. But we can use certain better techniques to do 
marker-assisted breeding, and we are doing that.
    Mr. Schrader. Very good. Dr. Fischer, can you talk a little 
bit about the seed application technology that you are working 
on?
    Dr. Fischer. Yes. We have a new additive that is added to 
the seed hopper we call fluency agent. It is a seed lubricant 
is what it is, and what has occurred in some instances is with 
pneumatic planters that are in use, as the seeds are moved 
through the planter and put into the ground, they rub against 
the machinery, they rub against each other and a little bit of 
dust is produced. And that is exhausted by these pneumatic 
planting systems. So what we are trying to do with the fluency 
agent is eliminate this dust because this dust has the 
potential to move off-site to flowering plants where bees can 
contact them. What we have found is with our fluency agent, we 
can reduce the dust abrasion by anywhere from 50 to 90 percent, 
and we are actually working with a number of universities and 
other stakeholders. There is actually a corn dust research 
consortium that has been convened by the Pollinator 
Partnership. I saw Tom Van Arsdall here today. And so that 
group has sponsored research to really look at how effective is 
this and what are the best ways that we can--what are the ways 
that bees can be exposed to these seed treatments.
    But seed treatments in general are the best way to use an 
insecticide. You get it into the ground. The worst way to use 
an insecticide and expose bees or the way that has the most 
potential to cause exposure is to spray a bee attractive plant 
when it is blooming, the Linden tree example. When you spray a 
pesticide, you result in about 1,000 times greater residues 
than the pollen and nectar that the bees are collecting than if 
you use the chemical systemically.
    So that is really--the message I would have is systemics, 
when they are used carefully and properly, are really the best 
way to go. And we want to be careful with insecticides, 
spraying anything, any plants that are bee-attractive.
    Mr. Schrader. Mr. Stone, you talked about improper 
application. Would you describe what happened as improper in 
that one incident in Oregon?
    Mr. Stone. Thank you, Ranking Member Schrader. Absolutely. 
Linden trees, which are beautiful as the Chairman indicated, 
when they flower, a landscaper came and sprayed it on the whole 
tree. And it is a big attractor to bees and a whole bunch just 
came in and then they got in contact with it. And when you are 
in direct contact in that application, it is fatal. And so it 
was an improper use of that application.
    Mr. Schrader. And what is the right recommendation for 
application?
    Mr. Stone. For Linden trees, it is when it is not in 
flower. So it is an attractor to the bees. Oregon is fairly 
well north, and bees are out only at a certain part of the 
year, and you have to spray it when the tree is not in flower.
    Mr. Schrader. Thank you. I yield back.
    The Chairman. Mr. LaMalfa?
    Mr. LaMalfa. Thank you, Mr. Chairman. Mr. Cummings, again, 
thank you for traveling as far as you did to be part of this 
here today. You stated, did you say it was \2/3\ of U.S. bees 
are used at one time or another during the year for almond 
pollination?
    Mr. Cummings. That is approximately true. It depends on 
when you take the baseline. So for example, last year the NAS 
report said there were 2.5 million colonies of honeybees. There 
were over-wintering losses. If you use 2.4 million as 
available, 1.6 are required, around \2/3\. It is not an exact 
number, but it is pretty close.
    Mr. LaMalfa. And for California, their need starts about 
that first week of February, correct?
    Mr. Cummings. That is correct.
    Mr. LaMalfa. Okay. So this is an important thing to the 
almond industry, up and down our state----
    Mr. Cummings. It is absolutely critical.
    Mr. LaMalfa. Could you emphasize that a little bit? I know 
we are short on time.
    Mr. Cummings. Yes. Most almonds are not self-fertile nor 
self-pollinating. There are some newer varieties now that are 
self-fertile, but they still do benefit from pollination. And 
that means moving the pollen from the anther of the flower to 
the stigma of the flower. So 90-95 percent of the almonds in 
California need to be cross-pollinated which requires the 
honeybee as a vector to move the pollen from one variety of 
almond to another variety of almond, and the percentage of nut 
set is highly correlated with the number of pollen grains that 
are transferred. So the better and more thorough pollination 
transfer of pollen grains from one variety of almond to the 
other variety of almond dramatically improves the nut set and 
our crop. And this crop has continued to grow. It is 840,000 
bearing acres this year, and that crop value will probably 
close to maybe $7 billion--I am not used to talking in B's--$7 
billion.
    Mr. LaMalfa. We do it all the time around here. So the 
challenge the panel has talked about a little bit here, we hear 
about the mite, we hear about pesticides as a possibility, we 
might have other conditions with, say, our drought in 
California causing challenges. What would you rank, how would 
you rank, say, the top three you face or we face in California 
or for almonds across the board, what have you?
    Mr. Cummings. In growing challenges or bee challenges?
    Mr. LaMalfa. Bee challenges.
    Mr. Cummings. Bee challenges would be forage, the Varroa 
mite and pesticides.
    Mr. LaMalfa. Forage?
    Mr. Cummings. Forage is nutrition, is that--this is my 
opinion--CCD and winter losses and honeybees are highly 
correlated with cumulative stress, and the largest stressor as 
we have discussed is Varroa mite. The second largest is 
nutrition. So just the same as you and I, if we have a good, 
balanced diet, we are able to tolerate stressors in our lives 
far more better. And with the drought in California, all of the 
growing regions for almonds in California are ranked as either 
extreme or exceptional drought, and there are no flowers. And 
this is true as well in many other places across the United 
States which has reduced the amount of natural forage that are 
available to honeybees. So forage, Varroa mite and then 
pesticides.
    Mr. LaMalfa. I know first-hand. I know other beekeepers 
that they sell honey at some of the various festivals and such, 
and they will have different varieties that come from star 
thistle or meadow from of all things, and their varieties are 
down on some of those types due to some of our recent drought.
    It was mentioned on the panel earlier that you have some 
other supplements, other things you were working with in 
feeding the bees. What was that food, the SuperBee?
    Mr. Cummings. MegaBee.
    Mr. LaMalfa. MegaBee. That is right. My brother has the 
Super Bee Dodge. So I got them mixed up. Okay, MegaBee. So you 
are taking steps forward to really try and enhance what you 
have naturally. Talk about that a little bit more, too, on how 
you are making bees healthier and more nutrition, et cetera.
    Mr. Cummings. Sure. Our bee operation with over 10,000 
colonies of bees spends around $\1/2\ million a year on 
supplemental feeds because of the dearth in available forage. 
The natural forage is absolutely indispensable. It comes in 
with different bacteria. It helps ferment pollen that is 
deposited into the comb and to bee bread which converts into 
amino acids. Jeff could elaborate on this far better than I 
could. But it is absolutely critical for a good diet.
    The supplemental feed helps. Certainly the proteins 
especially help. Project Apis m. and the Almond Board of 
California have been sponsoring programs now to encourage 
almond growers and other farmers in California to plant forage. 
And we do so alongside of our orchards so that before and after 
almond bloom, and even during almond bloom, there are 
alternatives, natural forage, pollens and nectars available to 
the honeybees.
    Mr. LaMalfa. So a good ground cover is helpful to you all, 
too?
    Mr. Cummings. Absolutely. The CRP grounds in North Dakota 
are critical as that acreage--a lot of it has been converted 
over from CRP into soybean propagation and corn because of the 
value of those commodities make that ground now economically 
viable, and that has been a tremendous loss for the bee 
industry. Approximately 20 percent of all the honey made in the 
United States is made in North Dakota, anywhere from 300,000 to 
500,000 colonies a year go to North Dakota after almond 
pollination, pollination of other crops. And so that CRP ground 
is critical, and the planting mixture is not only the acreage 
that is available but as well the mix of the CRP of the cover 
crops. So a richer mix of legumes and flowering plants in that 
CRP mix will make a tremendous difference.
    Mr. LaMalfa. Okay. Thank you. I might come back to you on 
bees and citrus as we talked about in California a couple years 
ago. So I will yield back, Mr. Chairman.
    The Chairman. Mr. Vargas?
    Mr. Vargas. Thank you very much, Mr. Chairman. First, I 
would be remiss if I didn't thank all of you from the 
agriculture arena for your support on immigration reform. You 
have been stalwarts on that, and I appreciate it very much. By 
the way, CCD, as a Catholic, usually stands for something very 
different, Confraternity of Christian Doctrine. I hope we can 
get back to that and fix the honeybee.
    I want to ask about best management practices. What is the 
best science? What are the best management practices that we 
should have out among growers to protect the bees? I agree with 
how important honeybees are to California. What are the best 
management practices? Anyone want to take a stab at that? Mr. 
Stone?
    Mr. Stone. Thank you for the question. The best management 
practice, when this issue first was raised, we brought together 
our growers, our retailers, our landscapers all into one place, 
and we wanted to try to get to the root of the problem. An 
integrated pest management program is probably the best way to 
go about it because as I stated in my oral testimony, if you 
use just one type of pesticide, any pest, it doesn't matter if 
it is something that impacts the bees or not, will develop a 
resistance to it. So what you want from the nursery perspective 
is to make the cleanest plant possible to ship to customers and 
to rewholesalers that are free of any pathogen or pest because 
the last thing you want to do is have it spread all over the 
country, and then it is a bigger problem for USDA in trying to 
manage it. So the best way that we have seen it is that you 
want to be smart. People forget how much pesticides cost, and 
that you just don't throw it on there. You certainly don't 
throw on a pesticide that you don't know how effective it is 
going to be or what is it going to do to the plant because you 
don't put anything that is unknown on there.
    An IPM, integrated pest management program, is the best BMP 
that you can start with but then also just good, old-fashioned 
common sense.
    Mr. Vargas. How about you, Mr. Cummings? I know that we in 
California are quite sophisticated in the farming industry. 
What would you say? I heard your answer about the forage and 
the severe drought and the other issues. But what in California 
should we be doing or what are we doing that we shouldn't be 
doing?
    Mr. Cummings. I will start with turning on talk. The first 
most important thing is really communication and coordination 
between growers of pollinated crops and pollination services, 
beekeepers, to know what each other is doing and what our plans 
are. So for example, in the almond industry is that, of course, 
I own a bee business, but we also use other bee businesses. We 
coordinate when the bees are going to be moved into the 
orchards. We discuss what other crops might be blooming in the 
area, what other crops might be experiencing pesticide 
applications in the area. The bees are brought in, they are 
strategically placed, water is provided. This year we have been 
having this horrible drought, is that we provide water for the 
honeybees. We coordinate when the bees are moved out. We try to 
coordinate our sprays and communicate with our beekeepers of 
what we are applying. We choose the softest materials and most 
bee-friendly materials that are available and try to put them 
on the orchards after most of the pollen has been gathered so 
that there is as little direct contact between pesticides and 
the honeybee as possible.
    Integrated pest management has been mentioned, and that is 
critical. That is something that the bee industry is deploying 
more and more with some of their tech transfer teams that are 
like our certified pest advisors, our CPAs that advise us with 
our crop production going out now and working with beekeepers 
to know, to be able to identify what do they have in the 
colonies. Do they have foul-brood? Do they have mites? Do they 
have nosema? When is the appropriate treatment levels to try to 
use more but use it more timely--excuse me, to try to use less.
    Mr. Vargas. Less, yes.
    Mr. Cummings. But more timely. So those are examples of 
different best management practices, and in the end, I think it 
goes back to the collaboration between pollination service and 
pollinated crops.
    Mr. Vargas. Thank you. Thank you, Mr. Chairman. I yield 
back, sir. Thank you.
    The Chairman. Thank you. Mr. Cummings, how long does a bee 
live? What is the average lifespan of the bee?
    Mr. Cummings. I will defer to Dr. Pettis. I do know from my 
honeybee production is that if you are in a northern latitude 
where the days are very long and there is a hell of a sweet 
clover bloom, those bees are working long, hard hours and don't 
live nearly as long as a well-nourished bee in the fall that 
goes into semi-hibernation in preparation for producing brood 
for almonds. So I believe 45 days to as much as 5, 6 months.
    Dr. Pettis. Yes, we have winter bees and summer bees. In 
the summer, they can be very short lived, even in a heavy honey 
flow, even 15 or 20 days. But the average is probably 35 days 
in the summer, 200 days in the winter.
    The Chairman. Mr. Collins.
    Mr. Collins. Thank you, Chairman. As a new Member of 
Congress and somebody that came in with a firm belief that 
Washington rarely knows best, in a critical role that I see us 
playing on Committees is one of oversight in looking out for 
business and Americans to avoid overreach and the like. So my 
question, really, to Mr. Cummings and to Mr. Stone, whose 
livelihood depends on the bee population, would just be the 
simple question, should Congress be playing any role whatsoever 
in this particular issue? And as we are finding out, there are 
many different threats to the honeybees and there is a lot of 
collaboration going on already to protect your industry. With 
Dr. Pettis sitting there, as I am hearing this discussion, it 
sounds like the USDA is actually working collaboratively with 
the industry, that they are looking out for what is best for 
the industry, whether it is best practices or the like and that 
right now, as I sit here, this has been educational. I don't 
know that I see any pressing need in this case for Congress to 
step in, unlike other areas where we have seen overstepping by 
the EPA and we need to make sure that we don't define mud 
puddles as navigable waters. I don't see that issue here with 
the USDA, and I just wonder what your opinion is of the 
collaboration between the USDA, your industry, and do you 
really think in Congress there is a role for us to play in this 
very complicated issue? Mr. Cummings, you want to or--
    Mr. Stone. We did rock, paper, scissors----
    Mr. Collins. Okay.
    Mr. Stone.--so that I would go first, Congressman. Thank 
you for the question. The question about whether or not you 
should act, it is how you act and what you direct. And there is 
a bill before Congress that talks about putting off the ban of 
the use of neonicotinoids until further review can be done by 
the Environmental Protection Agency. I think that is well-
intentioned. I just don't know if it is the right thing to do.
    Mr. Collins. That to me would be the overstep of Congress, 
thinking we always have a solution. We rarely do. So yes, that 
would be--I am fully with you on that. That would be an 
overstepping. We would never support that.
    Mr. Stone. One of my own Members of my delegation 
introduced the bill, so I can't be too cheeky about that. But I 
would submit to you, though, my written testimony is about the 
role of Congress is to help direct research. There is a lot of 
research out there, and it is about accumulating that research 
and finding out not only what are the options for the use of 
this particular type of pesticide which was misapplied in 
Oregon, okay? Misapplied. And finding alternatives, helping 
work with our chemical companies about finding alternatives 
that will work well and have not been--and you don't want to 
harm the pollinator community, but we also don't want to 
increase health risk for workers who apply a pesticide. So my 
urging to you is to be collaborative, involve stakeholders, 
folks in the environmental community, the beekeeper community, 
the farm community, have them come together and work with 
researchers to try to find a suitable path forward.
    Mr. Collins. And again I would think that is a continued 
role between the industry and the USDA.
    Mr. Cummings. I would like to echo Mr. Stone's remarks and 
just point out, it perhaps might be subtle until you give it a 
little thought is that as a farmer, I like to have the broadest 
array of arrows in my quiver to address pests. And if you start 
removing those or the EPA does, then I have to go back, I have 
to fall back to some other alternative that still is available, 
and oftentimes those aren't nearly as beneficial to the 
honeybee.
    Second point would be the continued funding of Varroa is 
that I think the number, Mr. Chairman, from $16 billion to $20 
billion just goes for the increase in value of the almond crop 
in the last 2 years, is that we need to address and we need to 
get a solution for Varroa mite. It benefits 90 different 
pollinated crops in the United States, about \1/3\ of our diet 
in all the states. So funding of Varroa mite research is 
critical.
    And then last, something could be done at little expense is 
continued support of the CRP program and encouraging a richer 
mix of flowering species, not just grasses but flowering plants 
in the CRP mix to enhance the natural forage that is available 
to honeybees. I can't imagine it would incur any additional 
cost.
    Mr. Collins. Yes. No, thank you for that testimony. What 
you have really pointed out were, when I say what is the role 
of Congress that is on a pro-active way, what you have given me 
is two examples of where Congress should not be pro-active, 
which I fully agree with. One is the EPA, the other is banning 
the neonicotinoids. That is the case of Congress, as I started 
out by saying, the overreach we shouldn't do and should back 
off, and again, this is one where I think what I am sensing is 
USDA is doing a very good job in working with the industry in a 
collaborative effort. We should let that continue. And I also 
do agree the research dollars and making sure they are well-
used with input from you is something we should be cognizant of 
as we pass our appropriation bills. Thank you. I yield back, 
Mr. Chairman.
    The Chairman. Thank you. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you, 
gentlemen. I am very interested in this. I am a farmer myself, 
but a few years ago I found a bee colony in a dead tree in our 
pasture and it was kind of fun. We had a beekeeper come out and 
help harvest that, and they saved the colony and so they were 
going to treat them for the mites and make sure they were able 
to be healthy for a long time. And I got to try to strain honey 
out of the old combs, and it was a lot of fun. So I certainly 
appreciate the role of bees and appreciate what you do.
    And I was just wondering, while much attention has been 
given to the Varroa mites, it is my understanding that other 
parasites and pests may affect honeybees. So I was wondering, 
what is the assessment, your assessment of the impact of these 
pests individually and collectively on bee colonies? And I 
guess Dr. Pettis, maybe?
    Dr. Pettis. Well, certainly the Varroa mite is not the only 
problem affecting honeybee health, and in fact, viruses are a 
good example of that. Honeybees all have viruses at low levels, 
but given the interaction with the Varroa mite, those levels of 
viruses can spike. Well, the same can happen with something 
like nutritional stress or other stressors. So the pathogens, 
things like bacteria, fungi and viruses, are there present in 
the bees, and when bees are under stress, then these things can 
manifest themselves, just like our own bodies if we are under 
various types of stress. It is the pathogens that often kill 
the bees. There are some primary stressors that are driving 
that.
    Mrs. Hartzler. That is very interesting. What do you think 
the most pressing need in research is right now and is there 
adequate funding for that in our budget, the President's 
budget? Dr. Pettis, maybe?
    Dr. Pettis. I am kind of echoing what they were saying 
about some of the issues. I think the land use and forage 
efforts, CRP and others that USDA has on a number of fronts, 
are where some of the biggest impact can be made. Beekeeping in 
the United States has changed. It used to be about honey 
production. It is now about pollination, and the average 
colony, the average commercial colony, gets rented three to 
five times. So by definition, they are in an ag setting, but 
they are only getting one source of nectar or pollen, and they 
always do better on a mixed diet. So if they can get mixed 
flowers and CRP and other programs can provide that, then they 
will do better.
    So diversifying the agricultural environment through these 
land management programs can have a huge impact.
    Mrs. Hartzler. I think that makes a lot of sense, and it 
wouldn't necessarily incur that much cost, like you say, 
because we already have the CRP programs and just start 
promoting that more. So I really appreciate that information.
    USDA estimates bee colony losses normally average 17 to 20 
percent per year, but in the winters of 2006-2007 and 2007-
2008, losses averaged higher than normal rates, about 30 
percent per year. So I was just curious, how is this number 
calculated? Who is surveyed? How have losses trended in the 
more recent years, 2011, 2012, 2013?
    Dr. Pettis. So in 2006-2007 when we started identifying 
Colony Collapse Disorder as a major impact on bee losses we 
started doing a survey. USDA Animal and Plant Health Inspection 
Service, the apiary inspectors of each state got together and 
we did a survey of the beekeepers, what were your losses like 
through the wintertime. And so we started out with just 
manually calling things. We moved online, and now it is funded 
by a NIFA grant. Bee Informed Partnership does that. NASS, 
National Agricultural Statistic Service, has a honey survey 
that they do, have done for 75 years. There is talk about NASS 
taking over that loss survey, and that would be good because 
then they reach out to all beekeepers and get total 
representation. The survey that we have conducted has 
represented about 20 to 40 percent of the managed colonies in 
the United States. So it has been fairly representative, but it 
is not as good a job as NASS could do in doing a loss survey.
    Mrs. Hartzler. How have the losses compared the last few 
years?
    Dr. Pettis. Two or 3 years ago we had a loss of about 22 
percent, but on average they have been just at 30 percent or 
greater. And we will have a new number May 6th. We have a 
report that will come out for last year's losses. So they are 
still averaging in the 30 percent range which again is at least 
ten percent higher than we expect with Varroa mite. So very 
simply, before Varroa mite, we had about ten percent loss. With 
Varroa mite, we moved up to almost 20 percent loss, and now 
with all these other factors, we are up to 30 percent loss. And 
beekeeping is kind of unsustainable at that rate.
    Mrs. Hartzler. Absolutely. Well, this is a very, very 
important issue, and I appreciate you being here today. I 
appreciate, Mr. Chairman, you holding this hearing because it 
is very vital for agriculture in many ways. So I yield back. 
Thank you.
    The Chairman. Mr. Denham from California.
    Mr. Denham. Thank you, Mr. Chairman. Dr. Pettis, as you 
know California is experiencing a tremendous drought right now. 
Secretary Vilsack has stated that USDA is acting to mitigate 
the crop losses due to the drought. What types of challenges or 
loss do you expect to see with the honeybees?
    Dr. Pettis. Well, it is a challenging question. We have 
that survey under way right now, and we will have that figure 
May 6th. I do know for California specifically, this year, 
coming out of almonds, the keepers are normally there from 
January, February, into early March, and there are other things 
blooming in California. This past year there has been virtually 
nothing blooming in California due to the drought. So this 
particular year in California was unusual and that the bees had 
almonds and they had virtually nothing else.
    So we talk about the Midwest as being important, the 
Dakotas and the Midwest, because that is where the bees summer. 
Sixty to 70 percent of the bees summer there, and then they go 
to California, but foraging California is critical as well. And 
I don't know where the loss figure will go this year.
    [The information referred to is located on p. 41.]
    Mr. Denham. And do you know if USDA is planning anything to 
mitigate any loss or address any of the challenges that we are 
facing with our pollinators?
    Dr. Pettis. I would have to get back to you with specifics 
on whether we were looking at mitigating. I will say that this 
fall we are planning to hold a summit on forage that will look 
at forage issues this coming fall. But I don't know about 
mitigation. I have to get back to you on that.
    [The information referred to is located on p. 41.]
    Mr. Denham. Thank you. Mr. Cummings, have you seen your 
costs increase? Have you been forced to pay higher prices due 
to the Colony Collapse Disorder?
    Mr. Cummings. Prices have definitely gone up from about $40 
or so early in the 2000s to up to about $180 now. There was a 
Gianini Foundation study that was published about 3 years ago, 
and they did a correlation between two things, two driving 
factors for the cost of almond pollination. One of them was the 
dramatic increase in acreage and therefore the demand for 
honeybees, and then second, Colony Collapse Disorder. The 
conclusion of that study was that the increase in costs are 
driven about 50/50, 50 percent by the increase in acreage and 
50 percent by Colony Collapse Disorder and the impact on the 
available supply of honeybees to the almond industry.
    Mr. Denham. Thank you. Along with over quadrupling of the 
cost of honeybees, how tough is it to find them these days? And 
is it getting tougher?
    Mr. Cummings. You can always find boxes to put in the 
field, but whether that is a good viable colony and how strong 
that colony is, as I know you know as you are an almond farmer. 
So that is why I immediately started chuckling is there are a 
lot of growers out there that think they have bees. It always 
amazes me. You know, to produce a pound of almonds, 13 percent 
of my variable cost of production, labor, water, equipment, 
fertilizer, 13 percent of our cost to produce a pound of 
almonds is for honeybee rent. And growers need to be more 
active and getting out there and looking in their boxes and 
seeing what they have because some years are dramatically 
better than others.
    Mr. Denham. Thank you. I yield back.
    The Chairman. Thank you. Mr. Schrader, do you have any 
closing statements?
    Mr. Schrader. I just appreciate the panel. It has been very 
informative. I think it has gotten us a little better 
appreciation for the variety of problems that are causing 
problems in our pollinators right now. I appreciate the great 
work, research, and thoughtful discussion that you guys bring 
to the table. Hopefully we will mirror that in what we do and 
what we don't do here in the halls of Congress. And just for 
the record, I am not that legislator from Oregon that 
introduced that bill. Thank you, Mr. Chairman.
    The Chairman. Mr. LaMalfa. I think he had another question. 
I'd ask the gentleman if he had----
    Mr. LaMalfa. Oh, thank you, Mr. Chairman. One more follow-
up on that, Dr. Fischer. There is a lot of research you are 
going to have underway soon, and I am just wondering what do 
you think can be developed in the future? What will your 
emphasis be to improve bee health situations with ongoing 
research? We talked about it isn't just Varroa but we also have 
other pests and disease that can be an emphasis. What do you 
have on that, please?
    Dr. Fischer. Well, we are focused largely on Varroa. We are 
working on some other things, but we are working on some new 
ways to control Varroa, ways to apply the chemicals in a novel 
way so that the bees sort of self-dose, and beekeepers are able 
to rotate modes of action to combat resistance. We have some 
new chemicals that we are screening to see if we can come up 
with something novel. We are also working on small hive beetle 
which is a pest that certainly in North Carolina and the South 
causes some problems, some ways to control the small hive 
beetle. And just general beekeeping practices. You know, how 
can agriculture and beekeeping coexist better? A number of 
people mentioned it. When you talk to beekeepers and growers, a 
lot of times if they just communicate better, they can work out 
a lot of the conflicts. But we are trying to be a place where 
we can bring stakeholders together. We can work with multiple 
stakeholders to find some of these solutions.
    Mr. LaMalfa. Thank you. And Mr. Stone, Mr. Cummings as 
well, coordination was mentioned. Thank you, Dr. Fischer, on 
that. It makes a lot of sense where you have--for back hoe 
folks they have 1-800 Miss Utility phone number. And so it 
would seem like is the system, Mr. Stone, Mr. Cummings, working 
well enough on coordinator or is there more that can be done, 
more that perhaps we could emphasize if it is appropriate to 
have that coordination? You know, we have talked about a lot of 
things. Back when I was in the state, there was a lot of 
controversy over citrus as a place to house bees over-
wintering, so they would have a food source until they can get 
back into the spring but some controversy over when and where. 
So could we do better on the coordination with the timing, with 
when material might be applied, or even as was talked about, 
more places to forage? I have a little idle land that we can't 
grow anything on, maybe a positive program where we would have 
certain types of cover crop that would be helpful to bees. What 
could we do in all this coordination area, either with 
government or not?
    Mr. Cummings. The industry is doing a lot of that on their 
own and getting better every year. And so by way of example, it 
has really only been the last 3 or 4 years that we have clearly 
identified what a deficit we have in the availability of 
natural forage. So Project Apis m., in conjunction with the 
Almond Board of California, has been sponsoring plantings of 
cover crops in fallowed areas adjacent to almond plantings, 
providing free seed as a matter of fact, also developing best 
management practices and enhancing communication within the 
grower community. And obviously, the cost of the input to 
almond growers is getting almond growers' attention, and they 
are paying more attention also. We are making great strides in 
those areas. There is clearly more opportunity, but we are 
already doing very well.
    I will give you an example. Blue Diamond has a field staff, 
a dozen different field staff members that service the needs of 
our grower owners, and they are a wonderful vehicle for getting 
the word out, communicating to growers the things that they 
ought to be concerned about and promoting the communication and 
cooperation with beekeepers, developing a beekeeping strategy, 
a pollination strategy. And so at least the California almond 
industry is evolving in that area in recognizing the value of 
natural forage and doing what we can through Project Apis m. 
and the Almond Board to advance that.
    Mr. LaMalfa. And certainly we have some of your colleagues 
set up bee yards in some of our idle areas. Mr. Stone was 
talking about--and there is this emphasis again of Congress, do 
something, right? And so we hear a piece of legislation might 
be to have a complete ban on the neonicotinoids--sir----
    Mr. Stone. I'm not keeping--Congressman.
    Mr. LaMalfa.--to some extent, and you know, there is always 
an overreaction it seems on things. So what I have heard is 
that when you have a misapplication, somebody using the 
material wrong, and if the label is not defined well enough for 
certain situations, those folks making the law have stepped in 
and further defined the label so people use the material will 
better use that. And if they continually use it 
inappropriately, there is going to be a penalty for that. Do 
you believe we are on track using this better information, 
better emphasis on information? Are we on track to doing that 
without having to take a drastic measure on bans as is some 
folks' natural course on these materials?
    Mr. Stone. Congressman, I appreciate the question. I think 
that the EPA's response initially was actually pretty helpful. 
They are creating an insignia that looks like a bee on 
something that could be potentially toxic to the pollinator 
community and just reiterating the fact that you need to take 
into consideration when you are applying this particular 
pesticide that you can't do it when bees are present.
    One of the big challenges that we have is that we face 
language barriers as well as we do anything else with some of 
our applicators. So you want to try to use as many visuals as 
you can, and the EPA should get a little bit of credit for 
putting that forward. Now, saying that we should uniformly then 
ban until the science catches up, is a little bit of an 
emotional response. But I would say that your role, my plea to 
you is that I believe that the Congressional role is to urge 
the type of research, get the type of alternatives that we 
have, increase public awareness. One thing about the bee deaths 
in Wilsonville is that it sure as heck got a lot of public 
awareness to it. But I would submit that this type of 
pesticide--the neonics are involved in a lot of different 
products ranging from flea and tick items all the way to the 
stuff that you would buy to apply as an agricultural operation.
    Mr. LaMalfa. Real quick question.
    The Chairman. Gentleman--
    Mr. LaMalfa. How many bees per bee box? How many bees 
reside in one bee box?
    The Chairman. This is the last question until we go to Mr. 
Costa.
    Dr. Pettis. Twenty thousand to 40,000, depending on the 
season.
    Mr. LaMalfa. Thank you. Okay, thank you, Mr. Chairman. I 
appreciate it.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this hearing of the Subcommittee. It is kind of a follow-up 
question by our colleague, Congressman LaMalfa. In 2008 we put 
funding in the farm bill to try to deal with the concerns with 
the loss of bee colonies throughout the nation, and in 2014 we 
did so as well. And I just finished a bag of almonds here, and 
knowing that California produces 95 percent of the world's 
almonds, obviously this is important, but it is also important 
to a lot of other commodities that depend upon the pollination 
as well as a whole lot of other important purposes that bees 
produce that are just now beginning to come to light.
    My question to those of you who would like to respond is, 
are we doing a good enough job coordinating the money from 2008 
and 2014 with the private sector money? You mentioned the 
California Almond Board's efforts on research to deal with the 
decline of bee colonies. Is the money being, both the public 
and the industry money being used and coordinated well to 
really determine not only the contributing factors to the 
losses but also a strategy to address those losses? Who would 
like to respond?
    Dr. Pettis. I will just say that within USDA we hold 
stakeholder meetings that include beekeepers but also growers 
and other stakeholders to get input and what things we should 
be addressing. And there are good examples of us working with 
private partnerships, with the Almond Board and things.
    Mr. Costa. Well, I know there are examples. I guess I am 
trying to find out is your sense is it working and what is not 
working, I guess, and what could we do better? It is all 
perfect, huh?
    Dr. Pettis. It is not perfect, no. The health of the 
honeybee is not perfect.
    Mr. Costa. No, we know that.
    Dr. Pettis. Honeybees----
    Mr. Costa. But I am wondering as this isn't a new issue.
    Dr. Pettis. And beekeepers are suffering. We have looked at 
honeybees as something kind of mystical. They produce honey and 
wax, but it is really the pollination. And we need to think of 
it more as livestock, and we have not done that. We have not 
done that in the past. They are livestock, and they have one 
mission and that is pollination, at least in agriculture. They 
do all these other magical things as well, and working with the 
growers, the different growers that depend on bees for 
pollination, I agree with doing that, but it could always be 
improved.
    Mr. Costa. Yes, but this Committee's job in part is 
oversight. What I am trying to understand in terms of our 
oversight role is this; is the Federal funding being used well, 
as it should be. Are either taxpayer dollars or industry-
related dollars to coordinate with the various private entities 
or associations really getting to the bottom of this. Are we on 
the right track? Is there an evaluation? How do we provide the 
oversight to know that taxpayer money is being spent wisely? No 
one argues the cost.
    Mr. Cummings. I can try to speak----
    Mr. Costa. I don't argue the cost.
    Mr. Cummings. I can try to speak to at least a part of 
this. As the Chairman of the Bee Task Force for the Almond 
Board of California and as the Past Chairman of Project Apis m. 
as well, we review a lot of bee research proposals that either 
the Almond Board funds or Project Apis m. funds, and we have 
learned a lot as well over the last several years. We now have 
a Scientific Review Committee at the Almond Board, at Project 
Apis m. At the Almond Board we have the Bee Task Force to 
prescreen these research proposals and evaluate them and ask 
questions of where is other money coming from? What areas of 
specialty exist out there with the ARS labs? And we continue to 
fund that. The Almond Board of California has spent a lot of 
money at the Carl Hayden Research Lab----
    Mr. Costa. No, I know you have.
    Mr. Cummings. To your question, we feel like we are getting 
good value there because we are electing to spend our money 
there. We are a client in a sense.
    Mr. Costa. I got that. I am just trying to understand from 
our oversight role, if there is something we should be doing. I 
would like to see what the results of our efforts are and make 
sure we are getting the best bang for our buck and getting to 
the root causes of the CCD, how we fix this problem. Where are 
we?
    Dr. Pettis. I will take another stab. As Dan mentioned 
earlier, we have actually probably in the last 5 years 
recognized that honeybees are suffering from lack of forage. 
And so all the USDA and even the private efforts by utility 
companies and others to increase the forage is money well 
spent. So there is some of that that is Federal and there is 
some of that that is private where these private-public 
partnerships are developing around forage. I think that is an 
area where we can have immediate and lasting impact.
    Mr. Costa. Mr. Chairman, my time has expired, I am only 
trying to find out if we invest X amount of dollars, will we 
arrive at a solution in 2 years or 4 years? Is the question one 
of resources? Is the question one of research? Or is the 
question that we just don't know enough yet? I understand more 
forage is better for bees. I got that. But I don't know that we 
are any closer to solving the cause. I have read that there are 
a number of factors that are resulting in the decline of the 
colonies. What I have not heard is how we fix this decline.
    Dr. Pettis. You have heard that it is multi-factoral. There 
are various factors involved. And so the answer is going to be 
complex. I think in this year's President's budget there is 
some $25 million pollinator--I don't know what we call it--
pollinator initiative. And I was asked specifically by a number 
of individuals, would that turn bee health around, and I could 
not honestly say that even that infusion of money would turn it 
around tomorrow. And the reason for that is it is very complex. 
It is not going to take one answer. So we are going to have to 
take--research helps with the land use issues and things like 
that help as well. So I couldn't honestly say that the huge 
infusion of money would turn it around tomorrow.
    The Chairman. Mr. Davis?
    Mr. Davis. Well, actually, I am glad Mr. Costa went in 
front of me. My question is actually built on what his line of 
questioning was, and I first want to apologize to the panel 
that I came in late. I had to go see some veterans on an honor 
flight who served our country. And that was our priority today.
    But this is a very important issue. As a matter of fact, I 
was actually out in the Central Valley of California with my 
good friend, Mr. LaMalfa, and Mr. Valadao, and saw parts of 
agriculture that someone in the Midwest doesn't get to see very 
often, including almond trees, pistachio trees and other 
operations.
    I have a distinct concern of the Colony Collapse Disorder, 
and when you look at Mr. Costa's questions about how are we 
utilizing our investment from the Federal Government to address 
this problem, I find it very interesting, Dr. Pettis, your 
comment that $25 million might not solve the problem. And it 
goes to the old adage that not everything needs money to fix 
the problems.
    And with that in mind, I would like to go to Mr. Cummings 
and ask you. You know, USDA has a publication called Using Farm 
Bill Programs for Pollinator Conservation. Can you tell us how 
you in California have been able to leverage some of these 
programs?
    Mr. Cummings. I am not familiar with that document so----
    Mr. Davis. Well, better yet, have you guys in the private 
sector who are dealing with this issue on a regular basis, have 
you been able to leverage any of our farm bill programs, USDA 
research programs, to help further your research to get to the 
point where we start to solve problems?
    Mr. Cummings. You know, I am not prepared to answer that on 
behalf of the industry. Perhaps I could prepare some remarks 
and submit it to the Committee for your review.
    [The information referred to is located on p. 42.]
    Mr. Davis. Okay. That would be fine. How do you think USDA 
can better help these beekeepers then? You just heard from Dr. 
Pettis that $25 million may not be enough in his opinion. So it 
is not just about money. What can we do in this Committee to 
help you address this problem on the ground to leverage Federal 
funds or Federal opportunities with some of the opportunities 
that you discuss in your testimony and also that you discussed 
today?
    Mr. Cummings. Congressman, two areas, one of them would be 
a sustained and continued commitment to research on Varroa 
mite. Oh, boy, if that burden was lifted from our honeybee 
operation, it would make a tremendous difference. And then the 
second area would be the availability of forage which would be 
the CRP lands and a richer mix of flowering plants in those CRP 
mixes.
    Mr. Davis. Excellent. I appreciate the responses. I have a 
couple minutes left, and as I see that I am winding down to the 
end, I want to give each of you a chance. Is there anything 
that this Committee hasn't asked you that you would like to 
address now? You are welcome to use the rest of my time to do 
so. Going once, going twice. I yield--oh, Dr. Fischer.
    Dr. Fischer. Let me just say I haven't commented on the 
forage issue. Our industry also sees that as a tremendous need 
that we need more opportunities for beekeepers to place bees in 
good, quality habitat. Bees need food, shelter and water just 
like we do, and if we keep the bees healthy, they will resist 
some of these diseases better. And if we can control the mites, 
we will knock down the pathogen loads. Everything is 
intertwined. It is all intertwined.
    Mr. Davis. Well, thank you, Dr. Fischer. Mr. LaMalfa, I see 
you took 10 minutes the first time. You need me to yield me the 
last minute?
    Mr. LaMalfa. No, I am doing fine, sir. Thank you.
    Mr. Davis. You sure? All right. Mr. Chairman, I yield back.
    The Chairman. Are you sure about that?
    Mr. Davis. Reset the clock. I got another 5 minutes. All 
right.
    The Chairman. Gentlemen, I want to thank you for being 
here, and I know Mr. Schrader had to step out as well. I 
appreciate the fact-based approach in making sure that we have 
the science right to help resolve this problem. I think one of 
the key questions with regard to the oversight is making sure 
that the money that is going from the taxpayers, from the 
United States taxpayers, into this research is producing the 
results that is needed to help again generate the value of the 
crop, which means that it will have a return for everybody.
    With that said, again, thank you for being here, and under 
the rules of the Committee, the record of today's hearing will 
remain open for 10 calendar days to receive additional 
materials and supplementary written responses from the 
witnesses to any questions posed by a Member. The Subcommittee 
on Horticulture, Research, Biotechnology, and Foreign 
Agriculture hearing is now adjourned.
    [Whereupon, at 10:25 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Statement by Hon. Austin Scott, a Representative in Congress 
 from Georgia on Behalf of Gene Harrington, Vice President, Government 
             Affairs, National Pest Management Association
    Chairman Scott, Ranking Member Schrader, and other Members of the 
Subcommittee, the National Pest Management Association (NPMA) 
appreciates the opportunity to submit testimony regarding the panel's 
hearing to review the current research and application of management 
strategies to control pests and diseases of pollinators.
    Founded in 1933, NPMA is the only national trade group representing 
the interests of professional pest management companies. NPMA's 6,000 
members manage countless residential pests such as ants, bed bugs, 
mosquitoes, rodents, stinging insects and termites in a myriad of 
residential, commercial and institutional settings.
    We are taught early on that bees are beneficial insects. The value 
of insect pollination to U.S. agricultural production is estimated at 
$16 billion annually; about \3/4\ of the value is attributable to honey 
bees. In light of how significant bees are to the ecosystem and to 
maintaining a diverse and healthy food supply, NPMA is a member and 
financial supporter of the Pollinator Partnership, a group devoted to 
the promotion of the health of pollinators through conservation, 
education, and research
    U.S. Department of Agriculture (USDA) estimates of over-winter bee 
colony losses have averaged more than 30 percent annually in recent 
years. (Since many beekeepers have been able to replace lost hives, 
overall honey bee colony numbers are stable.) Science suggests multiple 
factors for the decline in bee health including; parasites, diet and 
nutrition, lack of genetic diversity, habitat loss, beekeeping 
management practices, weather, and viruses. A 2013 joint USDA and U.S. 
Environmental Protection Agency (EPA) report found the Varroa mite as 
the ``most detrimental pest of honeybees.''
    Some have unjustifiably singled out pesticides as the primary cause 
for the decline in bee health, focusing specifically on a class of 
pesticides known as neonicotinoids. As part of its periodic review of 
every pesticide, EPA is presently reevaluating neonicotinoids to ensure 
they meet contemporary health and environmental standards. While the 
process is expected to last until 2018, EPA can impose use restrictions 
sooner, if the data warrants such action. In fact, last August, EPA 
amended language on neonicotinoid product labels to better safeguard 
bees from unintended exposure. The Agency is expected to issue a 
proposal later this year extending that language to all pesticide 
labels.
    When used improperly, pesticides can indeed be harmful to bees. 
Pest management professionals (PMPs), however, have met their states' 
pesticide applicator licensing and certification requirements and are 
trained to apply pesticides according to label directions. The 
byproduct of EPA's evaluation of a pesticide's potential environmental 
and health hazards, labels are an extension of Federal and state 
pesticide law. Of course, bees can also be pests, infesting homes and 
threatening human health in certain situations. Consequently, PMPs are 
frequently contacted to manage such problems. It is standard practice 
for many PMPs to reach out to bee keepers to collect and recolonize 
honey bees they are called upon to control. In addition, an increasing 
number of PMPs are being bee keepers themselves, and they try to 
preserve the bees they encounter for their personal hives. Sometimes, 
however, treating bees with a pesticide is unavoidable.
    When used according to the label, there has been no demonstrated 
negative effect on bee health associated with use of neonicotinoid 
insecticides. Moreover, the chairwoman of a major National Academy of 
Sciences study on the loss of pollinators recently said she was 
``extremely dubious'' that banning neonicotinoids would have any 
positive effect.
    In closing, NPMA urges Members of Congress to withhold support from 
measures that unfairly blame pesticides for the decline in bee health, 
overlooking the widespread science that shows this is an extremely 
complex issue with multiple factors involved. NPMA also urges Committee 
Members to join the Congressional Pollinator Protection Caucus (CP2C), 
a bipartisan group dedicated to protecting pollinators and their 
habitat.
                                 ______
                                 
 Submitted Statement Hon. Jim Costa, a Representative in Congress from 
    California on Behalf of Almond Hullers & Processors Association
May 5, 2014

  Hon. Jim Costa,
  U.S. House of Representatives,
  Washington, D.C.

    Dear Rep. Costa:

    Thank you for the opportunity to submit testimony to the recent 
hearing on research efforts to combat pests and diseases of pollinators 
on behalf of the Almond Hullers & Processors Association, the 
California almond industry's trade association. Our members represent 
90 percent of the almond industry based on tonnage. The almond industry 
is California's third ranking agricultural crop with a farm gate value 
of $4.3 billion in 2012. We are proud to say we are the number one 
California agricultural export and the number one specialty crop export 
for the United States. 2012 almond exports of $3.4 billion created 
47,000 jobs. California produces 80 percent of the world's almonds and 
100 percent of the U.S. domestic supply.
    Almonds are the largest crop that needs to be pollinated by bees 
and we are the first crop to bloom each year. For those reasons, the 
almond industry partners with beekeepers and bee researchers to protect 
this vital resource. This partnership is funded through the Almond 
Board of California (ABC). I would like to share with you that ABC has 
invested over $2.2 million of almond grower dollars in bee health 
research since 1995. ABC key objectives today are to assure a 
sufficient supply of strong hives for almond pollination and to assure 
almonds continue to be a good and safe place for bees. To reach these 
objectives, ABC's primary research focus over the last several years 
has been honey bee health including nutrition, stock improvement, pest/
disease management, and the impact of pesticides. Since 2000, ABC has 
funded 70 projects with key researchers throughout the United States. 
Current projects include:

    1. Improving honey bee nutrition and forage throughout the year

                a. Nutritional effects of protein supplements vs. 
                natural forage in colonies used for almond pollination

                b. Integrated crop pollination--supplemental forage in 
                conjunction with almonds

    2. Varroa mite (and other bee pests) control--breeding, new 
        materials and management techniques

                a. Varroa treatments: Efficacy and economic impact

                b. Treatment thresholds: Enhancing tech transfer teams 
                for the beekeeping industry.

      Note: Tech Transfer Teams are experts who work with beekeepers 
            and other pollinator stakeholders to provide disease and 
            parasite management monitoring along with analysis so that 
            beekeepers can make science-based decisions on what helps 
            or hinders bee health. Over wintering bee losses for 
            beekeepers working with a Tech Transfer Team average 17 
            percent, while the standard bee loss is 31 percent.

    3. Stock improvement

                a. Germplasm importation, preservation and stock 
                improvement

    4. Balancing the need for pest control materials, both in crops and 
        in the hive vs. possible effects on live health

                a. Fungicide effects on honey bee development

                b. Impact of fungicide application on pollen 
                germination and tube growth

    In addition to ABC-funded research, the almond industry has 
successfully utilized the UC Cooperative Research and Extension 
programs that support staff and facilities for basic laboratory and 
field research as well as supporting applied research and Extension 
that moves basic research into commercial settings and helps 
communicate findings and recommendations developed through that 
research to the grower community. Continuing cuts in public funding for 
agricultural research are having a significant impact on the pool of 
skilled researchers available to carry out research projects. At UC 
Agricultural and Natural Resources (ANR) division, there has been a 40 
percent decline in the number of ``boots on the ground'' Extension 
specialists and farm advisors from a peak of 300 farm advisors and 200 
specialist in 1990 to 200 advisors and 100 specialists today.
    As these permanent budget cuts continue, private industry must be 
involved in securing research capacity at the basic and applied level 
to ensure California growers maintain their competitive edge.
    The ABC is currently engaged in prioritizing future research needs 
for the industry and exploring ways to support research capacity 
through public and private partnerships.
    To support research capacity, ABC is designating funds on an 
ongoing basis to cover start-up costs for Extension opportunities. For 
example, ABC is partnering with the California Pistachio Research Board 
to provide funding for the research and community outreach provided by 
a Farm Advisor/Specialist with the ANR for up to 6 years. Upon the 
completion of the 6 year probationary period, ANR would take over the 
funding. This collaborative approach is being overseen by the ABC 
Production Research Committee and allows ABC to advance commitments to 
this important program.
    If you would like information about these projects or others ABC 
funds to benefit the almond industry, please let me know. Again, thank 
you for letting us participate in this discussion.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Gabriele Ludwig,
Consultant to AHPA.
                                 ______
                                 
  Supplementary Material Submitted by Dr. Jeffrey S.Pettis, Research 
 Leader, Bee Research Laboratory, Agricultural Research Service, U.S. 
                       Department of Agriculture
Insert 1
          Mr. Denham. Thank you, Mr. Chairman. Dr. Pettis, as you know 
        California is experiencing a tremendous drought right now. 
        Secretary Vilsack has stated that USDA is acting to mitigate 
        the crop losses due to the drought. What types of challenges or 
        loss do you expect to see with the honeybees?
          Dr. Pettis. Well, it is a challenging question. We have that 
        survey under way right now, and we will have that figure May 
        6th. I do know for California specifically, this year, coming 
        out of almonds, the keepers are normally there from January, 
        February, into early March, and there are other things blooming 
        in California. This past year there has been virtually nothing 
        blooming in California due to the drought. So this particular 
        year in California was unusual and that the bees had almonds 
        and they had virtually nothing else.
          So we talk about the Midwest as being important, the Dakotas 
        and the Midwest, because that is where the bees summer. Sixty 
        to 70 percent of the bees summer there, and then they go to 
        California, but foraging California is critical as well. And I 
        don't know where the loss figure will go this year.

    The main effect of drought on bees is that it will reduce bee 
forage. This year, USDA Natural Resources Conservation Service (NRCS) 
gave farmers incentives to plant bee forage on their farms. This 
program was just initiated this year. Since 2008, ARS research has 
identified ways to better provide bee forage for honey bees and other 
pollinators that will be useful to the farmers in this program.
    In addition, the 2014 USDA Crop Insurance program insures honey 
production losses related to low rainfall and its effects on bee 
forage. This should help mitigate financial losses felt by honey 
producers.
Insert 2
          Mr. Denham. And do you know if USDA is planning anything to 
        mitigate any loss or address any of the challenges that we are 
        facing with our pollinators?
          Dr. Pettis. I would have to get back to you with specifics on 
        whether we were looking at mitigating. I will say that this 
        fall we are planning to hold a summit on forage that will look 
        at forage issues this coming fall. But I don't know about 
        mitigation. I have to get back to you on that.

    Based on scientific evidence to date, the leading factors that are 
most likely interacting to cause pollinator decline are poor bee 
nutrition and habitat loss, parasitic mites and pathogens, 
transportation stress, and exposure to pesticides. Lack of diverse bee 
stock may also contribute to bee susceptibility. ARS has identified 
ways to better provide bee forage for honey bees and other pollinators. 
NRCS has initiated efforts to provide farmers incentives to plant bee 
forage on their farms.
    One of the issues that has recently emerged concerns questions over 
the importance of sublethal effects of insecticides and fungicides on 
honey bee health. The extent to which bees are exposed to these 
pesticides throughout their lifecycle is being assessed. In the last 
year, ARS has started research projects to evaluate better use of 
pesticides, such as to reduce bee exposures while still maintaining 
adequate crop protection.
    USDA and the Environmental Protection Agency (EPA) are coordinating 
efforts to revise the CCD and Bee Health Action Plan and develop a 
National Recovery Plan for Honey Bees in response to the 2014 
Presidential Memo on Pollinator Health. This will be accompanied by 
several listening and informational sessions nationwide. These efforts 
build on a National Stakeholder Workshop on Honey Bee Health held in 
2012. The report for that workshop can be found at www.usda.gov/
documents/ReportHoneyBeeHealth.pdf. A Bee Health Action Plan was 
developed to address needs identified by stakeholders at this workshop, 
and several Federal agencies are now working together to accomplish 
this work; the Federal agencies include eight USDA agencies 
(Agricultural Research Service (ARS), National Institute of Food and 
Agriculture (NIFA), Natural Resources Conservation Service (NRCS), Farm 
Service Agency (FSA), Animal and Plant Health Inspection Service 
(APHIS), National Agricultural Statistics Service (NASS), Forest 
Service (FS), and Economic Research Service (ERS)) and EPA.
    The goals of this work are to:

  <bullet> Accurately determine the pesticide exposure that bees 
        receive in the field and the sub-lethal effects of pesticides 
        on honey bees and colony productivity;

  <bullet> Systematically implement Best Management Practices for 
        pesticide use and develop strategies to enhance adoption of 
        these practices;

  <bullet> Greatly improve knowledge of bee nutrition and its impact on 
        bee longevity since malnourished bees are more susceptible to 
        stressors;

  <bullet> Improve bee breeding stock; and

  <bullet> Improve means of managing parasitic mites and diseases.
                                 ______
                                 
  Submitted Letter by Arthur Daniel ``Dan'' Cummings, Chief Executive 
  Officer, Capay Farms; Chief Financial Officer, Olivarez Honey Bees, 
                               Chico, CA
June 16, 2014

  House Committee on Agriculture,
  U.S. House of Representatives,
  Washington, D.C.

    Dear Committee Members:

    Thank you for the opportunity to provide additional answers to 
questions raised at the hearing to review current research and 
application of management strategies to control pest and diseases of 
pollinators. Rep. Davis had requested ways in which the almond industry 
had leveraged programs funded through the farm bill to improve bee 
conditions.
Conservation Programs
    Almond growers have availed themselves of funding from the 
Environmental Quality Incentives Program (EQIP) managed by the Natural 
Resources Conservation Service (NRCS) to help plant pollinator friendly 
plantings and hedgerows around their properties to help provide diverse 
forage for honey bees. Plantings have also been used to restore non-
agriculture lands to provide bee habitat. The NRCS Plant Material 
Centers around the country have been extremely useful in helping to 
identify plant species that are regionally appropriate to plant for 
pollinator habitat. Thus, they play a critical role in improving forage 
for honey bees and pollinators.
    Another program funded by the farm bill that is extremely important 
to beekeepers and the almond industry is the Conservation Reserve 
Program managed by USDA-FSA. While it is not directly utilized by the 
almond industry, the use of CRP lands in the Midwest is critical to 
ensuring good summer forage areas for commercial honey bees. The 
significant loss of acres due to increased corn and soybean prices, 
coupled with Congress' cut in support for CRP acres, is seriously 
hurting honey bees due to loss of good forage opportunities during the 
summer months.
Research Programs
    The Specialty Crop Block Grant program has been invaluable for 
funding. Project Apis M. has received funding for habitat creation 
around almonds. Also, funding from Specialty Crop Research Initiative 
(SCRI) grants via USDA-NIFA have gone to honey bee health or to 
pollinator health/habitat.
    Also, I would be negligent if I did not mention the Bee Informed 
Partnership sponsored by USDA-NIFA. Funding for Tech Transfer Teams 
through this project has been critically vital in Varroa mite treatment 
and control. In 2012-2013, commercial beekeepers working with these 
teams experience 17% overwintering loss of hives where the average 
commercial beekeepers hive loss was 31%. Funding for this project ends 
in 2 years and alternate funding will need to be identified as this 
program is too important to lose. The Almond Board of California 
contributes funds for Tech Transfer Teams and is committed to the 
program and future funding. Partnerships with other industries should 
be pursued.
    Finally, Rep. Costa had also asked a question regarding the 
effectiveness of research dollars that Congress provided in 2007 and 
2012 for honey bee health and whether that research is sufficiently 
coordinated. I would like to address that question as well. The 
additional funding has been very helpful in learning more about honey 
bee health especially when it comes to diseases and pesticides. 
However, better coordination to improve honey bee/pollinator health 
research within USDA and universities would be beneficial. The large 
coordinated efforts such as the Bee Informed Partnership (mentioned 
above) or the Integrated Crop Pollination Project are examples of very 
successful coordinated efforts. Areas where improved coordination would 
help include Varroa mite and disease management as well as pollinator 
breeding (e.g., queen breeders are not adopting USDA-ARS bred strains 
of bees). Also, currently there is too little coordination with EPA on 
any of the pesticide impact research. Most of the current work within 
USDA and universities is not usable in the regulatory context because 
it doesn't really help EPA assess what actions to take.
    Again, thank you for letting me participate in the hearing. Should 
you have any further questions, I am happy to respond.
            Sincerely,

Dan Cummings.
                                 ______
                                 
                          Submitted Questions
Response from Dr. Jeffrey S. Pettis, Research Leader, Bee Research 
        Laboratory, Agricultural Research Service, U.S. Department of 
        Agriculture
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. With the investments made on pollinator issues in both 
the 2008 and 2014 Farm Bills as well as other USDA programs, what has 
and hasn't worked?
    Answer. The U.S. bee industry started to suffer high bee mortality 
rates in the mid-2000's due to a malady commonly called Colony Collapse 
Disorder (CCD). Like Alzheimer's, diabetes, and cancer in humans, CCD 
has turned out to be a very complex problem in honey bees, and despite 
significant findings and continued scientific research, we have not yet 
found the underlying cause. While CCD seems to be somewhat in decline, 
bee losses in total have stayed about the same, suggesting that the 
problem of bee loss is large and the solutions are difficult.
    At the start, a major research barrier was the lack of any baseline 
data on honey bee colony health in the United States. Scientists still 
do not have any means for determining how current honey bee mortality 
rates compare with mortality levels before CCD, so U.S. Bee Loss Survey 
was established in 2008 to provide some data on the causes of bee 
losses, and from which to evaluate progress and measure success. This 
was run by the Apiary Inspectors of America for the first few years, 
and for the last 3 years, via a NIFA funded CAP grant to the University 
of Maryland. A Pest and Disease Survey is a separate, significant 
achievement that resulted from new funding provided for CCD research to 
APHIS, with scientific labor provided by ARS. Also, NASS is developing 
a strategy to survey colonies losses on a quarterly basis. A quarterly 
survey will provide better tracking of when and where mortality occurs, 
especially for migratory colonies. This project is not currently 
funded, but if funding is obtained, it could begin as early as April 
2015.
    Although over-winter losses in honey bee colonies have not declined 
significantly since the U.S. Bee Loss survey was initiated, scientists 
have made progress in addressing the problem. Four main areas have 
yielded results.
    First, research on CCD has taught us that the availability of 
forage for pollinators is declining in this country, and that a 
diverse, high-quality forage is needed for honey bees to help them 
withstand multiple stressors (e.g., disease, pests, pesticides). The 
U.S. Bee Loss Survey and research conducted by University and ARS 
researchers suggests that poor nutrition is affecting the ability of 
bees to survive the winter and deal with bee health issues. One recent 
finding is that pollen substitute protein does not provide, in itself, 
adequate nutrition for bees; pollen is needed as a supplement to any 
diet.
    Second, scientists have found that bees are exposed to a far 
greater number of insecticides and fungicides than previously 
recognized, and many of these pesticides can persist in the hive. 
Before this research was conducted, we did not know the large extent to 
which these pesticides were permeating the bee lifecycle. New research 
also suggests that some of these pesticides may cause sublethal or 
long-term health effects, even at low concentrations. As a result, EPA 
is now including honey bees in its quantitative risk assessment for 
pesticide registrations, and will begin requiring a broader suite of 
tests, all of which collect information on sublethal effects on bees. 
EPA is also considering a quantitative tiered method of testing (both 
lab and field evaluations) that will capture both lethal and sublethal 
endpoints. This evolution in the regulatory process is new since 2008 
and a direct result of research indicating that pesticides are one of 
the factors associated with declines. Also as a result of this 
research, ARS is now evaluating the use of pesticides in certain crops, 
such as vegetables, tree fruits and nuts, corn, cotton, and soybeans, 
to determine how pest control could be more efficiently achieved with 
regard to minimizing pollinator exposure to pesticides while still 
maintaining adequate crop protection.
    The third main finding is that Varroa mite control is critical to 
improving honey bee survival rates and CCD. In particular, this common, 
but devastating parasite spreads viral pathogens, inhibits the honey 
bee immune system, and decreases the life span of honey bee adults. 
These pathogens can be fatal on their own, but the combination of 
viruses, the Varroa mite, and possibly other pathogens such as nosema, 
seem to exacerbate CCD and declines in honey bee health. The search for 
a virus that may cause CCD has also resulted in the development of an 
entirely new method for controlling pests and diseases in insects, a 
method based on RNAi technology. RNAi technologies are still in 
development, but this strategy may open up an entirely new way to 
develop pest control, a new approach that could create highly specific 
pest control compounds that should not harm the bees.
    Fourth, U.S. honey bee colonies need increased genetic diversity. 
Genetic variation improves bee thermoregulation (the ability to honey 
bees to keep the hive warm), disease resistance, and worker 
productivity. Honey bee breeding should emphasize traits such as 
hygienic behavior that confer improved resistance to Varroa mites and 
resistance to diseases (such as American foulbrood).

    Question 2. What can we do to better help solve CCD?
    Answer. Pollinator health, of which CCD is an aspect, is a 
nationally important issue. In June 2014, President Obama issued a 
Memorandum in response to these serious issues. The Memorandum led to 
the establishment of a Pollinator Health Task Force, co-chaired by USDA 
and EPA, to coordinate government actions needed to improve pollinator 
health. As part of this coordinated effort to understand and mitigate 
pollinator decline, throughout USDA and other Federal partners, ARS has 
proposed a $4 million increase for pollinator health research in fiscal 
year 2015. A portion of these funds will be used for bee research at an 
existing ARS laboratory in California, a state that requires the use of 
over \1/2\ of the nation's bees to provide pollination services to 
almonds and other tree fruit crops. Other research will be directed to 
protect bees from mites and diseases using novel gene silencing (RNAi) 
strategies, mitigating losses from pesticides and other environmental 
stressors such as overwintering, and to develop forage seed mixes for 
bee nutrition. Other USDA programs, such as the National Agricultural 
Statistics Service (NASS), the National Institute of Food and 
Agriculture (NIFA) and the Farm Service Agency's (FSA) Conservation 
Reserve Program (CRP) have proposed significant increases. In December 
2014 a Report is due to the President to describe the actions being 
taken by Federal agencies in response to the Memorandum.

    Question 3. Is the Federal funding used like it should be?
    Answer. Yes. USDA and other Federal agencies are exploiting the 
best science available to address this issue, based on customer 
workshops and scientists input, and detailed in the CCD Action Plan. 
This Action Plan is under revision to include recent input from a 
Varroa Summit in 2014 and a Honey Bee Forage and Nutrition Summit in 
October 2014. We rigorously review and assess our research priorities 
for pollinator health continuously in close collaboration with 
stakeholders, members of the scientific community, and other Federal 
agencies.
    The Environmental Protection Agency (EPA) and USDA have compiled a 
Pollinator Road Map, which outlines past and planned activities to 
address CCD and other pollinator health issues.
    At the request of beekeepers, commodity growers, and pesticide 
manufacturers, ARS hosted a Varroa Summit in February 2014 to assess 
Varroa destructor (mite) control and effects on bee health. 
Presentation of several innovative research results included the 
development of genomic technologies, such as RNAi, and more 
conventional control measures, to control this serious parasitic mite.
    The Federal CCD Steering Committee hosted a customer/stakeholder 
meeting in October 2012, which provided input to the CCD Action Plan 
that is being updated for the 2014-2018 period. The focus of the Action 
Plan will change from CCD alone to CCD and bee health. The USDA Deputy 
Secretary organized a USDA Pollinator Working Group that met in March 
2014.
    Beekeepers and growers also requested that USDA host a Honey Bee 
Forage and Nutrition Summit, and that summit was just recently held on 
Oct. 20-21, 2014, in Alexandria, Virginia.

                                  <all>
</pre></body></html>
